THE UNITED STATES MARSHALS SERVICE’S
MANAGEMENT OF THE JUSTICE PRISONER
  AND ALIEN TRANSPORTATION SYSTEM


         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


            Audit Report 07-01


               October 2006
             THE UNITED STATES MARSHALS SERVICE’S
                      MANAGEMENT OF THE
      JUSTICE PRISONER AND ALIEN TRANSPORTATION SYSTEM

                               EXECUTIVE SUMMARY

       The Justice Prisoner and Alien Transportation System (JPATS)
transports prisoners and aliens in federal custody within the United States
and overseas using primarily air transportation. JPATS also performs
scheduling, security, and medical functions in support of prisoner
transportation. Managed by the United States Marshals Service (USMS),
JPATS serves not only the USMS, but also the Federal Bureau of Prisons
(BOP) and the Immigration and Customs Enforcement (ICE) agency of the
Department of Homeland Security (DHS). 1 JPATS also provides occasional
air transport for military, state, and local law enforcement agencies, and for
the federal government’s response to crises such as the hurricanes of 2005. 2

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted this audit of JPATS to evaluate the USMS’s: (1) ability to
effectively manage the risks inherent in prisoner movements to ensure safe
and efficient transport, and (2) coordination with its three primary
customers regarding the movement of prisoners and aliens.

Background

      JPATS was created on October 1, 1995, by the merger of the USMS
National Prisoner Transportation System and the Air Transport Branch of the
former Immigration and Naturalization Service (INS). The merger resulted
from a study by the DOJ’s Justice Management Division (JMD) conducted at
the request of the Attorney General, who sought to consolidate similar
programs that transported individuals on a regular basis.




       1
        In this report, we use “customers” to denote the three principal agencies that use
JPATS on a regular basis: the USMS, the BOP, and ICE.
       2
          JPATS transports prisoners and aliens by air through its own fleet of service-owned
and leased airplanes. Although JPATS assists in the scheduling of ground transport for the
BOP and the USMS, it does not own or operate the motor vehicle fleets used by those two
agencies. JPATS also is not involved in any aspects of the ground transport of aliens under
the jurisdiction of ICE.



                                           –i–
    In fiscal year (FY) 2005, JPATS completed 305,649 prisoner
movements. 3

          JPATS PRISONER MOVEMENTS BY ORIGINATING AGENCY AND
                    MODE OF TRANSPORTATION FY 2005 4
                                          Non-       Other
       Mode      USMS     ICE    BOP    Federal 5 Agencies 6 TOTAL

  Large Aircraft       57,035    95,511     23,662        3,176               6    179,390

  Small Aircraft        2,181       365           8            4              0       2,558

  Other Modes 7        78,032        91     44,777          797               4    123,701
   TOTAL             137,248    95,967     68,447        3,977              10    305,649
 Source: JPATS

       JPATS regularly serves approximately 40 domestic and international
cities, plus other locations on an as-needed basis. Prisoner and alien
movements are authorized for a variety of reasons, including pre-trial
hearings and competency examinations; trial; pre-sentence study and
observation; delivery to an institution to serve sentence; transfer between
institutions; delivery of criminal aliens to a deportation center; removal of
aliens; transfer of non-federal detainees; transfer of military prisoners; and
other missions such as secured transport of witnesses, extraditions, national
emergencies, and natural disasters.




       3
         According to JPATS, within each mode of transportation, a movement is the
transport of a prisoner or alien from an initial departure location to the destination,
regardless of how many intermediate stops are made.
       4
         See Appendix III for JPATS air movements by fiscal year and by customers, as well
as a breakdown of deportations to foreign countries.
       5
         In FY 2005, a total of 858 requests were made to transport non-federal prisoners
through JPATS; these requests generally came from state or local law enforcement
agencies. See Appendices IV and V for non-federal prisoner movements in FYs 2004 and
2005.
       6
         Other agencies include prisoners moved for the military or for other civilian federal
agencies such as the Federal Bureau of Investigation (FBI) and the Drug Enforcement
Administration (DEA).
       7
           Other modes include commercial air, cars, vans, buses, and air charters.



                                            – ii –
      Organizationally, JPATS is headed by an Assistant Director who reports
to the Deputy Director of the USMS. 8 Headquartered in Kansas City,
Missouri, JPATS maintains air fleet hubs in: (1) Oklahoma City, Oklahoma;
(2) Alexandria, Louisiana; (3) Mesa, Arizona; and (4) St. Croix, United
States Virgin Islands (U.S. Virgin Islands). The hub in Oklahoma City,
Oklahoma, manages the overall flight operations and transports prisoners
under the jurisdiction of the USMS and the BOP. The hubs in Alexandria,
Louisiana, and Mesa, Arizona, transport aliens under the jurisdiction of ICE. 9
The hub in St. Croix, U.S. Virgin Islands, primarily services the USMS and, to
a lesser degree, aliens for ICE. For the past several years JPATS has been
planning for a new hub in Aguadilla, Puerto Rico, which became operational
in June 2006.

      To help JPATS coordinate with the three main participating agencies
(the BOP, the USMS, and ICE), the JPATS Executive Committee (JEC) was
created in FY 2000. The JEC, chaired by the Assistant Attorney General for
Administration, consists of the Assistant Director of JPATS, the Federal
Detention Trustee from the Office of the Federal Detention Trustee (OFDT),
and three members each from the USMS, the BOP, and ICE. 10 The JEC
meets on a quarterly basis to discuss issues facing JPATS and its customers.

     JPATS transports prisoners and aliens by air through a fleet of three
government-owned and six leased aircraft, as detailed in the following table.




       8
          A significant change of personnel occurred during our audit, when the Assistant
Director of JPATS retired in January 2006. Between January and April 2006, a USMS
headquarters official served as the acting Assistant Director of JPATS. Since April 2006, the
Chief of Business Management Branch of JPATS has been serving as the acting Assistant
Director. In this report, the “Assistant Director” refers to the official who served in that role
until his retirement in January 2006.
       9
          ICE transports aliens through JPATS to detention facilities and immigration
hearings throughout the continental United States, and to Central America and the
Caribbean for deportations. JPATS provides only a portion of the transportation needs of
ICE. According to ICE officials, although JPATS provided 95,292 movements in FY 2005,
ICE used commercial airlines as well as chartered flights to meet the remainder of its alien
transportation needs. In FY 2005, ICE purchased 62,017 tickets from private sources at a
cost of approximately $63.7 million.
       10
         According to the Federal Detention Trustee, the OFDT participates in the JEC
because JPATS’s operations and the transport of prisoners affect day-to-day detention bed-
space requirements.

                                             – iii –
                   JPATS AIR FLEET COMPOSITION AND CAPACITY




                        [SENSITIVE INFORMATION REDACTED]




   Source: JPATS

Staff and Funding Source

      The staff of JPATS, as of FY 2006, consisted of 117 permanent
employees and 212 contractors. Permanent staff includes 32 pilots, 25
security officers, and 13 maintenance personnel, with the remainder
consisting of management and administrative staff. Contractors are
primarily flight security officers under personal service contracts, flight
nurses from the United States Public Health Service, and aircraft and
building maintenance personnel.

      Prior to FY 1999, JPATS was funded from the USMS’s annual
appropriated budget. In FY 1999, JPATS began operating on a revolving
fund instead of an appropriated budget, in part to ensure uninterrupted
transport of prisoners and aliens through a “pay-as-you-use” concept. This
means the agencies that use JPATS’s services – primarily the BOP, ICE, and
the USMS – pay for the services they receive, and those payments are
placed into a revolving fund that is used to pay for JPATS operations.
Revolving funds do not have fiscal year limitations like most appropriated
funds.

      When JPATS began operating as a revolving fund in FY 1999, it
charged its customers based on a cost-per-seat basis. In FY 2003, JPATS
switched its method of reimbursement and now charges its customers by the
number of flight hours rather than the number of seats used. This change

                                     – iv –
improved the allocation of costs without affecting the prices paid by
customers.

      Because JPATS is entirely supported by its customers through a
revolving fund, the “pay-as-you-use” concept relieves JPATS from the
financial crunch at the end of the fiscal year that it experienced under an
appropriated budget. However, our interviews with customers disclosed
problems and issues associated with the exclusive use of a revolving fund in
operating the program.

      For example, the USMS curtailed its usage of JPATS and thereby
temporarily reduced its contributions into JPATS revolving fund in both
FYs 2004 and 2005 to cover shortfalls in its own budget. In addition, the
BOP chartered its own medical airlifts because it found vendors who charged
one-half the cost that JPATS charges for its small airplanes. 11 The amount
ICE pays to JPATS is high because ICE has to pay the cost for round-trip
deportation flights to foreign countries, even though the return flight is
usually empty. Prior to FY 2006, JPATS explored selling seats on these
return flights to other federal agencies, but this option proved to be too
expensive because potential customers were required to pay for the entire
cost of the return flight, even if only one seat was filled. In FY 2006, the JEC
approved a new pricing policy for return flights from overseas deportations
under which agencies will be charged only for seats actually used and the
remainder of the flight costs will be borne by ICE.

Inherent Risks in Management Controls

      According to a USMS Directive, JPATS’s goals are to ensure that
prisoners or aliens appear in court when needed, are transferred efficiently
to a new correctional or detention facility, or are deported at the first
opportunity. 12 Given the variety of transportation needs and the nature of
the individuals being transported, inherent risks exist in managing a
transportation system like JPATS. The first objective in our audit was to
evaluate the USMS’s ability to effectively manage the risks inherent in
JPATS’s prisoner movements to ensure safe and efficient transport. To
examine this issue, we reviewed budgetary issues, capacity planning, the
leasing of aircraft, and the efficiency of scheduling prisoners and aliens onto
JPATS flights. Further, as discussed in the subsequent section, we examined

      11
          When chartering medical flights through other vendors from FYs 2003 through
2005, the BOP spent a total of about $19.8 million during the three fiscal years.
      12
           USMS Directive 16.3.

                                         –v–
safety and security risks by reviewing the adequacy of JPATS security
staffing and the adherence to crew rest requirements.

Budget Issues

      According to a JMD official, a revolving fund is the ideal choice to
operate a program when the level of required service cannot be predicted
accurately. JPATS meets this criterion because the requirements of the
federal judiciary are subject to frequent changes, and the number of
prisoner and alien movements is difficult to predict. When JPATS operated
with appropriated funds, the program ran out of money each year toward
the end of the fiscal year and had to rely on an infusion of funds from the
USMS to continue operations. Switching to a revolving fund was intended to
eliminate end-of-year shortages and allow JPATS to continue operating as
long as the customers are able to pay its expenses.

      The original Memorandum of Understanding (MOU) for JPATS’s
revolving fund outlined the responsibilities of the participating agencies. The
three major customer agencies agreed to Reimbursable Agreements as their
guarantee to pay for the services received from JPATS. The customers also
agreed to provide JPATS with annual estimates of anticipated movements as
a part of the planning process for each fiscal year. Further, the customers
agreed to keep all parties informed when the original estimates had to be
modified. As the provider of services, JPATS agreed to develop cost
estimates and pricing strategies based on the requirements of the customer
agencies.

      We reviewed this budgetary process and found that JPATS, along with
the BOP and ICE, generally adhered to the stipulations of the MOU.
However, the USMS did not adhere to the requirements of the MOU when it
decided to unilaterally reduce its flight hours in FY 2005. This issue is
discussed in detail in the chapter of this report entitled “Coordination Among
the Agencies,” sub section “Proper Intervention by the JEC.”

      Recognizing that the use of a revolving fund to finance JPATS
operations has both advantages and disadvantages, we explored possibilities
to minimize the disadvantages. One possible alternative to the revolving
fund would be a “hybrid” budget model that combines appropriated monies
with a revolving fund. The Federal Aviation Administration (FAA) employs a




                                    – vi –
hybrid budget model for its “Hangar Six Program.” 13 If JPATS were to
receive some appropriated funding under a hybrid model, it could budget
these funds for fixed costs –salaries and benefits of full-time employees and
office rent that support its infrastructure– and bill customers only for
variable costs such as fuel, overtime, and aircraft maintenance. Such a
model would significantly reduce the hourly rate that JPATS currently
charges its customers. We recommend that the USMS and the JEC consider
this hybrid funding model.

Capacity Planning

       According to JPATS officials, the overall demand for prisoner and alien
transportation has grown over the past six years, as shown in the following
table.

                 JPATS AIR MOVEMENTS FROM 2000 THROUGH 2005
                                                                                Percentage
                                                                                  Change
                                                                                from 2000
 Customer     2000        2001       2002        2003      2004       2005        to 2005
 USMS          51,702     52,601     54,789      59,820    63,721      62,402       21%
 BOP           26,091     24,586     25,793      26,014    23,532      23,670       -9%
 ICE/INS       74,693     75,530     82,103      89,373    89,269      95,876       28%
   Total     152,486     152,717    162,685     175,207   176,522    181,948        19%
Source: JPATS

      Given that JPATS is focused on providing transportation services to its
customers, it is important for JPATS to be a demand- or need-driven
organization. This means that JPATS and its operations should be directly
linked to the level of service that customers need in order to safely and
economically transport prisoners and aliens. To assess JPATS’s ability to
plan for capacity in order to fulfill customers’ needs for prisoner and alien
transport, we interviewed JPATS officials and examined relevant documents
in two categories. First, we examined whether JPATS has conducted long-
range plans to address anticipated changes in passenger movements based
on historical trends. Second, we reviewed flight manifest records to
determine whether the capacity of JPATS’s air fleet is being optimally used
to maintain an efficient operation.


        13
         Hangar Six flights transport FAA officials, take National Transportation Safety
Board (NTSB) personnel to crash sites, and provide transportation for air marshals in
emergency cases. Non-FAA customers pay Hangar Six for services received.

                                            – vii –
        Based on the pattern of past growth and expected future demands, it
is critical that JPATS adequately plans for its future capacity needs. By not
planning for future capacity needs, JPATS could be caught off guard by
changes in demand and customer needs and find itself in a position where it
cannot transport prisoners and aliens in an efficient and effective manner.

       An important element in any capacity planning effort is the ability to
forecast or predict future needs. According to JPATS management, however,
JPATS does not forecast or project prisoner and alien movements more than
one year into the future. 14 The closest that JPATS came to having multi-
year forecasting capability was contained in its 1997 five-year strategic plan.
The plan described the proposed development of a model to forecast and
predict JPATS’s future transportation demands based on the number of
prisoners and aliens in the federal prison system and those awaiting trial or
adjudication. The purpose of the model was to link historical trends that
affect demand with projections for future needs. However, the strategic
plan was not adopted upon its issuance, resulting in the abandonment of the
proposed forecasting model. 15 According to the Assistant Director of JPATS,
material in the 1997 strategic plan was believed to be obsolete by the time
the plan was completed. Yet, we believe that the specific forecasting project
was not obsolete, and the proposed model would have provided a
mechanism for JPATS to assess its future needs in air transport and develop
any necessary strategy and plans to fulfill those needs.

       When we asked JPATS management whether it is actively planning for
future capacity needs, the Assistant Director stated that JPATS does not plan
for future capacity needs because aviation programs change frequently and
are subject to many variables which would render such planning obsolete by
the time it is completed. We disagree and believe that the difficulty in
performing capacity planning is outweighed by the benefits including giving
JPATS the ability to plan for future increases in demand and incorporate
changes to its operations, if needed, in areas such as infrastructure, air fleet,
or personnel.



       14
           According to JPATS officials, before the start of each fiscal year JPATS obtains
from its customers projected prisoner movements for the upcoming fiscal year and
budgetary information for the upcoming three years. These projected movements are used
to establish the JPATS budget and revolving fund. However, in our discussion regarding
capacity planning we are focusing on forecasting models that extend beyond one year.
       15
          Upon the expiration of the five-year strategic-plan in 2002, JPATS did not develop
a new strategic plan.

                                          – viii –
       Further, we asked the Assistant Director of JPATS what is being
planned for JPATS to cope with the anticipated rise in prisoner and alien
movements. He told the OIG that JPATS is capable of meeting the increase
in customers’ demand for transportation services. Specifically, he said that
JPATS would lease additional planes on an emergency basis and hire more
contract guards to serve customers. In our opinion, this illustrates the need
for longer-term capacity planning because leasing additional planes on an
emergency basis is not only reactive, but is also more expensive compared
to longer-term aircraft leases.

       A consequence resulting from the lack of capacity planning has been
the under-utilization of available seats on JPATS aircraft. We reviewed data
from 1,034 flights between FY 2004 and the first quarter of FY 2006 (not
counting empty return flights from overseas deportations). We found that
74 percent of the seats were filled on flights originating from Oklahoma City,
Oklahoma, but only about 49 percent were filled on flights originating from
Alexandria, Louisiana, and 45 percent were filled on flights from Mesa,
Arizona. On the daily night-loop flights that depart from Mesa, Arizona, each
Monday through Friday, the under-utilization of seats was even more
pronounced. 16 Despite the more frequent processing of illegal aliens in the
region, only about 43 percent of the seats were filled for the 81 flights we
reviewed in FY 2004, and approximately 34 percent were filled for the 79
flights we reviewed in FY 2005.

      Overall, we noted consistent low usage of seats in flights that
transported aliens. While we understand that, given the needs of its
customers, JPATS is not always going to fly at full capacity, there are steps
JPATS can take to decrease the number of empty seats on its flights. For
example, JPATS could consider reducing the number of night loop flights it
offers. This would result in fewer, but more full, flights per week.

Investing in Aviation Resources

      Currently, JPATS leases its large aircraft under a short-term contract.
However, recent studies performed by the Government Accountability Office
(GAO) and the OFDT indicate that purchasing aircraft yields the most
savings for an aviation program on a long-term basis. If funding for

       16
          The “night loop” flight originates in Mesa, Arizona, in the late afternoon and
proceeds to several locations in the western United States to move aliens to detention
centers and pick up aliens being transported to drop-off points near the Mexican border for
deportation. The flight returns to Mesa, Arizona late at night.



                                          – ix –
purchase is not available, the GAO’s 2004 study suggests that long-term
leases provide more savings than short-term leases. 17 Yet, at the time of
our review, JPATS obtained all of its large aircraft using short-term leases.
We believe that JPATS should explore the more economical option of long-
term leases to meet its aircraft needs.

      JPATS operates six large aircrafts obtained with a short-term lease
awarded in late 2004 which it renewed in late 2005 for one additional year.
According to our interviews with 23 JPATS pilots, 20 believed that these
leased aircraft have operated well and have been maintained adequately by
the contractor. Of the remaining three pilots, two provided a negative
response, while one pilot did not answer our question. 18

       Although feedback from JPATS’s pilots was generally positive on the
quality of airplanes leased under short-term arrangements, recent studies
have shown that purchasing aircraft is the best option for aviation programs.
In its 2004 report, the GAO explored the following methods of acquiring
aircrafts: (1) purchase, (2) short- or long-term leases, and (3) lease-to-
purchase, where the programs remit lease payments and eventually own the
planes at the end of the lease. According to the GAO’s analysis, purchasing
is the most economical option over the course of the aircraft’s useful life and
short-term leases in one-year increments are the most expensive option.

      Despite the savings that could be realized through purchasing aircraft,
most federal air transportation programs have chosen operating leases, in
part because of how these expenses are reported in an agency’s budget.
According to the GAO’s analysis, operating leases seem “cheaper” because
programs are required to record only the annual lease payment in the
budget. By contrast, for lease-to-purchase options programs must record
the net present value over the entire life of the contract, a significantly
higher figure than operating leases.

     The OFDT reached a similar conclusion in its 2003 study, Aircraft
Replacement Procurement Strategy for the Justice Prisoner and Alien

       17
           In June 2004, the GAO issued its report, Federal Aircraft: Inaccurate Cost Data
and Weakness in Fleet Management Planning Hamper Cost Effective Operations. This report
examined seven federal aviation programs in terms of data accuracy, methods of acquiring
aircraft, and operational and safety standards.
       18
          Of the two negative responses, one pilot stated that the contractor is probably
doing the minimum requirements on maintenance to get by, while the other pilot said that
the contractor appeared to not take actions on minor maintenance issues until these
developed into more significant concerns.

                                          –x–
Transportation System (JPATS). In comparing the option to lease and
purchase, the OFDT stated that although short-term leases appear attractive
because of the low cost on a short-term basis, they provide no ownership of
the assets at the end of the terms. The OFDT also identified the Boeing
737-700 as a possible candidate for purchase. This aircraft would cost
$49 million, with a useful life of 30 years. The study by the OFDT compared
the cost of purchasing six such aircraft with leasing similar type of planes, as
follows.

        COMPARISON BETWEEN PURCHASING AND LEASING SIX AIRCRAFT
                  Type of   Age of   Estimated total cost over 30-year life
                  aircraft  aircraft      cycle (with maintenance)
                Boeing 737-
    Purchase                  New                 $540 Million
                    700
    Ten-Year Boeing 737- 8 Years or
                                                  $840 Million
      Lease         300      Under
   Source: OFDT

       Based on the above analysis, the OFDT concluded that purchasing the
aircraft would cost more in the short-term, but operating leases do not offer
ownership of the assets and cost more in the long-term. Nevertheless, the
OFDT conceded that because “funding is not available for the purchase of
aircraft; therefore, leasing remains the only option to modernize the JPATS
fleet.”

      JPATS officials told the OIG that they recognized the benefits of
purchasing versus leasing aircraft. However, they said that JPATS must rely
on operating leases because of the exorbitant initial outlay of capital
required to purchase planes. Of the various lease options, JPATS had
attempted to procure its air fleet through a long-term lease in 2002 that
would be cheaper than the current short-term leases. However, that
attempt was unsuccessful and had to be aborted in 2003. 19

       As of the time of this audit, JPATS officials stated that they are
renewing their efforts to procure leased planes on a long-term basis with
assistance from JMD. Additionally, JPATS has announced a new contracting
officer position, which would increase the total number of contracting officers
from two to three and ensure more adequate staffing for such a major
procurement project.

       19
            JPATS began the solicitation for a long-term lease of large aircraft in 2002. The
initial solicitation and a subsequent revision resulted in two protests. One protest involved
disagreement with the performance requirements specified in the solicitation, while the
other protest involved restrictive competition.



                                            – xi –
Scheduling Efficiency

      The JPATS scheduling process for prisoners begins with an electronic
request from the BOP or the USMS to JPATS’s Automated Prisoner
Scheduling System (APSS). First implemented in April 2000, APSS is an
automated scheduling system utilized by JPATS, the BOP, and the USMS to
schedule and transport prisoners efficiently. The system electronically
receives transportation requests from the BOP and the USMS, which includes
basic data on the passenger, movement type and requirements, and medical
or security issues. After evaluating the requests, JPATS schedules the
passenger movements upon considering each movement’s priority.

       We found that JPATS’s implementation of APSS has enhanced the
ability of JPATS, the BOP, and the USMS in processing movement requests
by automating the process and reducing the amount of manual word
processing that was needed under the previous method. Prior to
implementation of APSS in April 2000, JPATS relied on a manual scheduling
method that required excessive data entry to generate trip reports. By
storing requests in a database, APSS has enhanced the BOP’s and the
USMS’s ability to create, modify, query, report, and archive prisoner
transportation information. APSS has also reduced the amount of time
needed to process transportation requests and ensured that flights are as
full as possible. Although the actual scheduling of passenger movements is
not “automatic” and requires review of various criteria, JPATS schedulers we
interviewed unanimously endorsed the conversion from manual scheduling
to APSS.

       However, ICE does not use APSS to schedule alien movements, but
rather uses the system after-the-fact to enter passenger data for billing
purposes. Instead of electronically scheduling its passengers using APSS,
ICE detention centers and Service Processing Centers forward passenger
lists to JPATS hubs via facsimile on the day of the flight. JPATS staff
forwards those lists to JPATS Headquarters in Kansas City, Missouri, where
the names are manually entered into APSS after the flight.

      As discussed earlier, flights containing BOP or USMS prisoners are
generally more full than those for ICE aliens. When we asked ICE officials
why they do not fully utilize APSS, they stated that the agency generally has
too short of a lead time to electronically schedule aliens in APSS. According
to ICE, its lead time for flights within the continental United States is the day
of the flight and one week for foreign flights.


                                     – xii –
      Although we recognize that the short lead time for domestic flights
may not always allow for advanced electronic scheduling, we believe that the
one-week lead time on foreign flights provides enough time to electronically
schedule those passengers using APSS. Benefits from using APSS include
less data entry and flights that were more full.

       In addition, we believe the JPATS scheduling process could be
enhanced by providing security officers with an electronic manifest to be
used during flight missions. Currently, security officers at the hub print out
the flight manifest report from APSS before flight missions in order to
schedule a crew of security officers and to take the manifest aboard the
aircraft to verify the passenger list along the stops. We noted that
scheduled passenger lists on flight manifest reports are frequently updated
manually by the security crew on the day of the flight due to last-minute
changes. We believe that an electronic manifest would improve the security
officers’ ability to update the actual number of passengers loaded and
unloaded at each stop, as well as determining available seats to cope with
unexpected new passengers throughout the flight mission.

Safety and Security Risks

      We also evaluated the adequacy of JPATS’s controls to minimize safety
and security risks inherent in transporting prisoners and aliens. To
determine whether JPATS has sufficient controls in these areas and identify
areas for improvement, we interviewed JPATS and agency officials and
reviewed relevant documentation and data.

Safety Controls

       We reviewed safety and security controls by examining JPATS’s
policies in these areas and testing whether it was adhering to them. JPATS
is a public aircraft operation and therefore, according to the FAA, is not
subject to FAA regulations. 20 However, JPATS voluntarily follows most FAA
rules and has also developed its own Flight Operations Procedures and
Manuals (FOPM) to reduce safety risks.

      The FOPM requires JPATS to operate at airports with adequate
services, including an operational control tower. Deviations from this policy

       20
           Pub. L. No. 106-181 (2000) defines public aircraft as an “aircraft owned by the
Government,” and states that “transport of prisoners, detainees, and illegal aliens” is a
qualifying governmental function.



                                          – xiii –
require a waiver from the JPATS Chief of Flight Operations. We found that
JPATS complied with this requirement, except in Mesa, Arizona. JPATS has a
late flight each weeknight that returns to the Mesa, Arizona, hangar around
midnight. The control tower at the Mesa, Arizona’s Williams Gateway Airport
shuts down each day at 9:00 p.m. Although no safety incidents had
occurred in Mesa, Arizona hub as a result of a lack of operational control
tower for the return flight, the risk of navigating the airspace without an
operational control tower increases the potential that other aircraft in the
area will not see the JPATS flight on its approach, which may lead to a
collision.

       According to JPATS management, it has requested that ICE change the
evening flights with daytime flights, in part, to address the safety issues at
the Mesa airport. However, ICE has not been willing to change its evening
flights to daytime flights, because the evening flights enabled the agency to
synchronize with the schedule of immigration courts and deport aliens
immediately after the adjudication process is complete.

       Additionally, we reviewed documentation on pilots’ credentials required
by the JPATS FOPM and were able to locate the pilot licenses for each of
JPATS’s 32 pilots. Moreover, with one exception, the pilots’ background
checks were favorable and up-to-date. The exception involved a pilot whose
re-investigation was interrupted by a military tour in Iraq as a reservist in
2003. However, we found that four JPATS pilots did not have current annual
medical certificates on file, and four pilots did not have their most recent
training records on file. 21

      Another important safety control is crew rest. Under a JPATS Program
Directive, pilots, full-time Air Enforcement Officers (AEOs), and contract Air
Security Officers (ASOs) are entitled to a specific number of hours of rest
depending on the length of the flight duty, as shown in the following table. 22




       21
           The missing medical and training certificates were all located upon a follow-up
visit in April 2006.
       22
           JPATS voluntarily implements a policy on crew rest, even though it is not required
to do so as a Public Aircraft program. A direct comparison of rest requirements between
JPATS and civilian operators is not possible because of the methodology employed by each.
JPATS, for instance, includes pre- and post-flight activities in calculating duty periods for
pilots; the FAA excludes these in its policy.



                                           – xiv –
                         DUTY DAY AND ENTITLED CREW REST
               Duty Period in Hours                1 to 14     15    16   16 or more
     Entitled Crew         Pilot                      12       13    14        24
     Rest in Hours
                         AEO and ASO                9          12    12        24
    Source: JPATS Program Directive No. 4, Revision 5

      JPATS’s policy addresses crew rest by adjusting the daily flight
schedules, assigning a new crew, or, in rare instances, issuing waivers to
allow employees to fly without their prescribed rest periods. We found that
JPATS does not maintain records to show whether it is adhering to its crew
rest policies, including the specific instances when it has issued waivers.

      Despite the lack of a system to track crew rest, we reviewed time-and-
attendance records for a sample of 27 employees, representing a total of
1,248 flight assignments. We found 57 instances where JPATS crew
members appeared to have not received the entitled rest prescribed by
JPATS policy. 23 While the number of instances appears small in our sample
(4.57 percent), we believe that the absence of an effective system to
monitor the crew rest requirement presents a weakness in management
controls that should be addressed by JPATS.

      We also reviewed a variety of documentation related to the safety of
JPATS flight operations and found no accidents resulting in fatalities since
the program began in 1995. The only noteworthy aviation safety event was
an accident in October 2003 that involved a tire explosion on a leased JPATS
aircraft that landed at the Chicago O’Hare International Airport. All
passengers on board were evacuated without injuries, and an internal
investigation by JPATS concluded that defects within the leased aircraft
caused the mishap.

Security Controls

      Security on JPATS flights is a critical issue when transporting prisoners
and aliens. JPATS’s Cabin Security Crew Policy and Procedures Manual
(Cabin Manual), most recently updated in January 2004, addresses security
issues related to the transport of prisoners and aliens. [SENSITIVE
INFORMATION REDACTED]

       23
           Although the time-and-attendance records represented the best available
information in lieu of a specific tracking system, we could not definitively determine from
these records the amount of time spent by crew members on a flight mission. The amount
of time that a crew member spends on a flight mission is necessary to calculate the entitled
crew rest.

                                          – xv –
      Because JPATS does not maintain information on security crew size in
an electronic database, we found no easy method to assess whether JPATS
is adhering to this ratio on any given flight. In lieu of more definitive
records, we analyzed flight manifests to determine whether JPATS was
complying with the required [SENSITIVE INFORMATION REDACTED] ratio.
In total, we reviewed a sample of 1,028 flights and found 130 (13 percent)
that exceeded the required security ratio. We believe this deviation from
JPATS policy should be corrected because it exposes JPATS operations to
potential security threats when transporting prisoners or aliens.

       In addition to security on flights, JPATS assigns [SENSITIVE
INFORMATION REDACTED] security guards at its hubs and hangars
[SENSITIVE INFORMATION REDACTED]. We found, however, that JPATS
was unable to schedule sufficient security officers at hangars on a routine
basis. [SENSITIVE INFORMATION REDACTED] While security aboard its
flights is JPATS’s foremost objective, leaving the hangars understaffed or
unstaffed increases safety and security risks to its facilities on the ground,
including equipment, aircraft, employees, and contractors.




                      [SENSITIVE INFORMATION REDACTED]




Coordination Among Participating Agencies

    Successful transport of prisoners and aliens requires coordination
among all the parties involved in JPATS operations. In our second audit

                                    – xvi –
objective, we evaluated the adequacy of JPATS’s coordination with its
customers by determining whether JPATS had a mechanism for coordinating
all participating agencies at an administrative level to ensure that the
concerns of all parties are addressed. Further, we interviewed the Assistant
Attorney General for Administration, who chairs the JEC, and the Federal
Detention Trustee as well as representatives from the USMS, the BOP, ICE,
and JPATS to obtain their perspectives on coordination.

       Overall, we found mixed results in our examination of the coordination
between JPATS and its customer agencies. We believe that the JEC serves
as the primary mechanism for participating agencies to meet and discuss
matters of mutual interest. For example, in 2005 the JEC appropriately
intervened to address a situation that had the potential of adversely
affecting coordination. In early 2005, the USMS unilaterally decreased by
150 its projected flight hours of 1,850 because of a budgetary shortfall. This
was contrary to the 1998 MOU that requires customers to notify JPATS and
the other participating agencies of changes to their estimated usage. The
reduction of available flights required the BOP to delay movements of certain
prisoners or re-schedule their movements through its bus system, which was
already experiencing budget restraints and staff reduction.

      When the JEC learned of the USMS’s actions, it convened an
emergency meeting to address the situation. The matter was resolved when
the JEC directed the USMS to follow through on its commitment to its
projected flight hours and reimbursement to JPATS. As a result of the JEC’s
intervention, the USMS’s actions did not significantly affect other customers.

        A situation that we believe requires the attention of JPATS
management involved the BOP at the JPATS hub in Oklahoma City,
Oklahoma. JPATS uses the BOP Federal Transfer Center, located at the Will
Rogers World Airport in Oklahoma City, Oklahoma to house prisoners on a
temporary basis while they are in the process of being transported around
the country. During our site visit in the summer of 2005, we found that this
facility was operating at full capacity with 1,350 male inmates and 118
female inmates. The approximate average stay for these prisoners ranged
from 10 to 13 days in FYs 2004 and 2005. According to JPATS
management, there is no benchmark for how long a prisoner should stay at
the FTC. Because the facility operated at full capacity, the lack of bed space
affected JPATS’s ability to transport prisoners, especially those that required




                                    – xvii –
layover housing. 24 JPATS becomes less efficient and more costly when
overnight housing is lacking. Specifically, if JPATS does not have access to
beds for housing prisoners overnight, it cannot group prisoners destined for
the same location on a single flight and thereby take advantage of
economies of scale.

       To address this problem, the OFDT worked with the USMS to obtain an
agreement with a local county correctional facility that had an additional 240
beds available. Although this resolved the problem of insufficient bed space
for in-transit prisoners, we believe that JPATS should establish a benchmark
for the length of layover stays at the FTC. Furthermore, JPATS should work
through the JEC to examine how it can help reduce the length of stay for in-
transit prisoners being housed at the transfer center.

Recommendations

       Our audit report contains 15 recommendations to the USMS regarding
JPATS related to better management of the revolving fund, capacity
planning, and scheduling. We also make several recommendations related
to the safety of JPATS’s flight operations as well as security controls. We
believe that implementation of these recommendations can improve the
efficiency and security of JPATS operations.




       24
           When JPATS picks up BOP or USMS prisoners at a location, the final destination
for those prisoners may not necessarily be on the itinerary for that day, but rather on the
itinerary for a flight the next day or several days later. In such circumstances, JPATS needs
to house the in-transit prisoners until they arrive at their final destination. The BOP Federal
Transfer Center is used for this purpose.

                                          – xviii –
              THE UNITED STATES MARSHALS SERVICE’S
                       MANAGEMENT OF THE
       JUSTICE PRISONER AND ALIEN TRANSPORTATION SYSTEM

                                 TABLE OF CONTENTS


CHAPTER 1: INTRODUCTION ................................................... 1
    Background........................................................................ 1
    Overview of JPATS .............................................................. 3
    The Transportation Process .................................................. 8
    Prior Reviews ................................................................... 12
    Audit Approach ................................................................. 13

CHAPTER 2: INHERENT RISKS IN MANAGEMENT CONTROLS . 15
    Budget Issues .................................................................. 15
    Alternative to the Revolving Fund........................................ 19
    Capacity Planning ............................................................. 21
    Investing in Aviation Resources .......................................... 25
    Scheduling Efficiency ......................................................... 28
    Conclusion ....................................................................... 32
    Recommendations............................................................. 33

CHAPTER 3: INHERENT RISKS IN SAFETY AND SECURITY ..... 34
    The Public Aircraft Provision ............................................... 35
    Pilots’ Qualifications .......................................................... 36
    Service Limitations at the Mesa, Arizona Airport .................... 37
    Crew Rest Records ............................................................ 38
    Aviation Safety Records ..................................................... 43
    Adequate Size of the Security Crew ..................................... 46
    [SENSITIVE INFORMATION REDACTED] ............................... 52
    Reporting Security Incidents............................................... 54
    Conclusion ....................................................................... 56
    Recommendations............................................................. 56

CHAPTER 4: COORDINATION AMONG THE AGENCIES ............ 58
    Coordinating Functions of the JEC ....................................... 58
    Lack of a USMS Liaison ...................................................... 61
    Limitations of the BOP Federal Transfer Center...................... 62
    Medical Clearance of Passengers ......................................... 64
    Coordination on Financial Issues ......................................... 66
    Conclusion ....................................................................... 66
    Recommendation .............................................................. 67
STATEMENT ON COMPLIANCE WITH
    LAWS AND REGULATIONS .............................................. 68

APPENDICES:

   I.     OBJECTIVES, SCOPE, AND METHODOLOGY ................. 69

   II.    AIR AND GROUND ROUTES FOR
          JPATS’S CUSTOMERS.................................................. 71

   III.   JPATS AIR MOVEMENTS BY FISCAL YEAR
          AND AGENCY .............................................................. 72

   IV.    MOVEMENTS FOR NON-FEDERAL PRISONERS
          BY STATE ................................................................... 73

   V.     MOVEMENTS FOR NON-FEDERAL PRISONERS BY TOP
          REQUESTERS .............................................................. 75

   VI.    APSS PROCESSING CODES FOR PRISONER TRANSPORT
          IN SUPPORT OF THE FEDERAL JUDICIARY ................. 76

   VII. WEEKLY SCHEDULE OF LARGE AIRCRAFT ................... 77

   VIII. JPATS AIR FLEET COMPOSITION AND CAPACITY ....... 78

   IX.    LIST OF AUDITS AND REVIEWS ON JPATS OR ON
          SUBJECT MATTERS RELATED TO ITS OPERATIONS ..... 79

   X.     JPATS SAFETY PHILOSOPHY ...................................... 80

   XI.    FLIGHTS WITH PASSENGER-TO-CREW RATIO
          [SENSITIVE INFORMATION REDACTED] ........................... 81

   XII. ACRONYMS................................................................. 85

   XIII. AUDITEE’S RESPONSE ................................................ 86

   XIV. OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
        ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
        CLOSE THE REPORT.................................................... 93
                           CHAPTER 1: INTRODUCTION

       The Justice Prisoner and Alien Transportation System (JPATS)
transports prisoners and aliens in federal custody within the United States
and overseas. JPATS also performs scheduling, security, and medical
functions in support of prisoner transportation. Managed by the United
States Marshals Service (USMS), JPATS serves not only the USMS, but also
the Federal Bureau of Prisons (BOP) and the Immigration and Customs
Enforcement (ICE) agency of the Department of Homeland Security (DHS). 25
To a limited extent, it provides service for the military and state and local
law enforcement organizations. JPATS also provides occasional air
transportation in support of the USMS Witness Security Program and for the
federal government’s response to national crises, such as the terrorist
attacks of September 11, 2001, and the hurricanes of 2005. 26

       The Department of Justice (DOJ), Office of the Inspector General (OIG)
conducted this audit to evaluate the USMS’s: (1) ability to effectively
manage the inherent risks in prisoner movements to ensure safe and
efficient transport, and (2) coordination with its three primary customers
regarding the movement of prisoners and aliens. 27

Background

       JPATS transports prisoners between judicial districts and correctional
institutions in the United States and other countries through its leased and
owned aircraft, as well as with the motor vehicle fleet of its customers. 28
According to the USMS, JPATS completed 305,649 total prisoner movements


       25
          In this report we use the term “customers” to denote the three principal agencies
that use JPATS on a regular basis: the USMS, the BOP, and ICE.
       26
          For Hurricanes Katrina and Rita in 2005, JPATS participated in the relief efforts by
conducting a total of 27 flights, which transported 3,510 victims, 62 Air Force medics, and
35 Air Marshals.
       27
         See Appendix I for a more detailed description of our audit objectives, scope, and
methodology.
       28
           See Appendix II for a map showing the air and ground routes that transport the
primary customers of JPATS. JPATS transports prisoners and aliens by air through its fleet
of service-owned and leased airplanes. Although JPATS assists in the scheduling of ground
transport for the BOP and the USMS, it does not own or operate the motor vehicle fleets
used by those two agencies. JPATS also is not involved in any aspects of the ground
transport of aliens under the jurisdiction of ICE.

                                         -1-
in fiscal year (FY) 2005. 29 The following table provides a breakdown of
those movements by the originating agency and mode of transportation.

          JPATS PRISONER MOVEMENTS BY ORIGINATING AGENCY AND
                    MODE OF TRANSPORTATION FY 2005 30
                                          Non-        Other
       Mode      USMS     ICE    BOP    Federal 31 Agencies 32 TOTAL
  Large Aircraft       57,035    95,511     23,662        3,176               6    179,390
  Small Aircraft        2,181       365           8           4               0        2,558
                 33
  Other Modes          78,032        91     44,777          797               4    123,701
   TOTAL              137,248   95,967     68,447        3,977              10    305,649
 Source: JPATS

       JPATS regularly serves approximately 40 domestic and international
cities, plus other locations on an as-needed basis. Prisoner and alien
movements are authorized for a variety of reasons, including: pre-trial
hearings and competency examinations, trial, pre-sentence study and
observation, delivery to an institution to serve sentence, transfer between
institutions, delivery of criminal aliens to a deportation center, removal of
aliens, transfer of non-federal detainees, transfer of military prisoners, and
other missions such as secured transport of witnesses, extraditions, national
emergencies, and natural disasters.




       29
          According to JPATS, within each mode of transportation, a movement is the
transport of a prisoner or alien from an initial departure location to the destination,
regardless of how many intermediate stops are made.
       30
           See Appendix III for JPATS air movements by fiscal year and by customers, as
well as a breakdown of deportations to foreign countries.
       31
          In FY 2005, a total of 858 requests were made to transport non-federal prisoners
through JPATS; these requests generally came from state or local law enforcement
agencies. See Appendices IV and V for non-federal prisoner movements in FYs 2004 and
2005.
       32
          Other agencies include prisoners moved for the military or for other civilian
federal agencies such as the Federal Bureau of Investigation (FBI) and the Drug
Enforcement Administration (DEA).
       33
            Other modes include commercial air, cars, vans, buses, and air charters.

                                          -2-
     The following pie-chart displays USMS data on the breakdown of the
FY 2005 prisoner movements by purpose of travel. 34


                   JPATS Movements by Purpose of Travel FY 2005

                                  Miscellaneous
                                            6%
                            Warrant of
                             Removal
                                       4%
                                                           Judgment and
                            Federal Writs                   Commitment
                                   8%                          32%

                     Non-Criminal Alien
                              11%




                                 BOP Transfer
                                    18%               Criminal Alien
                                                         21%




                Source: JPATS

Overview of JPATS

     This section provides an overview of JPATS, including its history,
organization, staff, budget, and oversight.

History

      JPATS was created on October 1, 1995, by the merger of the USMS
National Prisoner Transportation System and the Air Transport Branch of the
former United States Immigration and Naturalization Service (INS). The
merger was in response to recommendations made by the Management and
Planning Staff (MPS) of the Justice Management Division (JMD), which was
directed by the Attorney General to conduct a study on the aviation
programs within DOJ. Specifically, the MPS study: (1) examined the
inventory of the air fleets of DOJ, (2) reviewed how each fleet was used, and
(3) explored possibilities of consolidating aviation programs for efficiency.
The scope of the MPS’s review included the aviation programs at the USMS,




       34
           The six percent of Miscellaneous in the pie-chart includes one percent for court
orders, one percent for non-federal entities that requested JPATS services, and four percent
for all others.

                                                -3-
the DEA, the FBI, and the former INS, which had two aviation programs:
the Air Transportation Branch and the Border Patrol. 35

       The MPS identified the aviation programs at the USMS and the former
INS’s Air Transportation Branch as likely candidates for a merger. The
primary reason was that both programs transport individuals on a regular
basis: the USMS provided air transport for prisoners, while the Air
Transportation Branch provided air transportation for illegal and criminal
aliens throughout the United States. The other aviation programs did not
have similar functions and were considered unique and unsuitable for
consolidation. The air operations at the DEA performed surveillance and
undercover investigations and aerial photography. The FBI’s aircraft
operations also performed aerial surveillance and photography, as well as
transporting FBI personnel and equipment. The mission of the Border
Patrol’s aviation program was to detect and apprehend aliens and smugglers
of aliens as well as stop narcotics trafficking through the use of aerial
surveillance.

      The MPS study recommended the merger of the air operations of the
USMS and the former INS because it would generate savings and avoid
“duplicative investments in aircraft resources.” This merger occurred in
October 1995, with the new organization named the Justice Prisoner and
Alien Transportation System.

Organization

      JPATS is headed by an Assistant Director of the USMS who reports to
the USMS Deputy Director. 36 JPATS is comprised of three branches:
business management, flight operations, and scheduling and security. The
Business Management Branch includes administrative, accounting, and
procurement functions. The Flight Operations Branch manages the overall
aviation program. The Operations Branch of Security and Scheduling
oversees all security and scheduling issues.

       35
         At the time of the study, the BOP relied on the aviation services provided by the
USMS; the BOP did not have its own aviation program.
       36
            A significant change of personnel occurred during our audit, when the Assistant
Director of JPATS retired in January 2006. Between January and April 2006, a USMS
headquarters official served as the acting Assistant Director of JPATS. Since April 2006, the
Chief of Business Management Branch of JPATS has been serving as the acting Assistant
Director. In this report, the “Assistant Director” refers to the official who served in that role
until his retirement in January 2006.



                                          -4-
      JPATS locations currently include its headquarters in Kansas City,
Missouri, and four air fleet hubs in Oklahoma City, Oklahoma; Alexandria,
Louisiana; Mesa, Arizona; and St. Croix, U.S. Virgin Islands. The Kansas
City headquarters provides business and scheduling functions. The BOP and
ICE maintain liaisons at the Kansas City location to consult on issues relating
to the transport of prisoners and aliens.

       The hub in Oklahoma City, Oklahoma transports prisoners under the
jurisdiction of the USMS and the BOP and also manages flight operations for
all the hubs. The hubs in Mesa, Arizona and Alexandria, Louisiana serve as
the bases for flight missions involving aliens under the jurisdiction of ICE.
The office in St. Croix, U.S. Virgin Islands transports federal prisoners for the
USMS and, less frequently, aliens for ICE. For the past several years JPATS
has been planning for a new hub in Aguadilla, Puerto Rico, which became
operational in June 2006. 37

Staff

      JPATS employs both permanent staff and contractors. Permanent staff
includes managers and operational employees in budget and accounting,
administration, information technology, flight operation, security, and
scheduling. Contractors include nurses from the United States Public Health
Service, flight security officers under personal contracts, aircraft
maintenance staff, and building maintenance personnel.




        37
          In accordance with Section 605 of the Annual Appropriation Act, JPATS submitted
its Congressional Relocation Report (CRR) for the Aguadilla project in 2003. A CRR notifies
the Congress on the opening, closing, and relocating of programs. Both houses of Congress
approved the CRR for the Aguadilla project in fall of 2004.

                                        -5-
      As of October 2005, JPATS employed 117 full-time employees and 212
contractors, as shown in the following table.

                           JPATS STAFFING AS OF OCTOBER 2005
           Managers                                                       10
           Administrative and Business Personnel                          15
           Information Technology Personnel                                4
           Security Personnel                                             25
           Transportation Schedulers                                      18
           Aircraft Maintenance & Flight-Following Personnel              13
           Pilots                                                         32
                                Subtotal – Onboard Full-time Staffing   117
           U.S. Public Health Service Flight Nurses                       13
           Contract Flight Security                                      160
           Contract Aircraft Maintenance Personnel                        35
           Contract Building Maintenance Personnel                         2
           Contract Information Technology Personnel                       2
                         Subtotal – Nurses and Contract Personnel       212
                                  TOTAL JPATS ONBOARD STAFFING          329
           Source: JPATS

Funding

       From its inception in 1995, JPATS operated on appropriated funds that
were a part of the USMS’s annual budget. Beginning in FY 1999, however,
JPATS received $5 million to initialize a new type of funding mechanism
called a revolving fund. 38 Since that initial infusion of money, the JPATS
revolving fund is maintained entirely from customers who pay for services
received. The intent of JPATS’s revolving fund was for it to cover all of the
transportation expenses related to the movement of prisoners and aliens
and to ensure consistent funding throughout the fiscal year. Before the
revolving fund was established, appropriated funds for JPATS needed to be
augmented from other sources within the USMS each year to ensure that the
transportation of prisoners and aliens would not be interrupted. Issues
relating to the management of the revolving fund are discussed in greater

      38
          According to the President’s FY 1999 budget submission to Congress, the USMS
requested $10 million to initialize the JPATS revolving fund; however, Congress
appropriated $5 million.

                                        -6-
detail later in this report, in the “Inherent Risks in Management Controls”
chapter, section entitled “Budget Issues.”

      The responsibilities of JPATS, its customers — the USMS, the BOP, and
the former INS — and JMD were outlined in a memorandum of
understanding (MOU) signed in July 1998. The three primary customers
promised to provide Reimbursable Agreements as their guarantee to pay for
services received from JPATS and these payments constituted the agencies’
contribution to the revolving fund. As the provider of services, JPATS agreed
to develop cost estimates and pricing strategies based on its customers’
requirements.

      Initially, JPATS charged its customers by the number of seats used.
Since FY 2003, it has billed according to the flight hours used. This change
improved the allocation of costs without affecting the prices paid by
customers. The following table shows the revenue and expenses for JPATS
in FYs 2004 and 2005.

                          JPATS REVENUE AND EXPENSES
                       CATEGORY             FY 2004           FY 2005

                BOP                         $    6,336,123    $     7,690,501
                ICE                             43,012,930         55,003,313
                USMS                            24,831,976         23,653,511
    REVENUE
                Non-Federal                       736,366            752,222
                WITSEC, Miscellaneous             575,179            257,680
                          TOTAL REVENUE     $ 75,492,574       $ 87,357,227
                Personnel/Training              17,909,727         17,658,244
                Aircraft Fuel                   18,087,797         21,161,629
                Aircraft Maintenance             2,755,931          1,763,757
    EXPENSES
                Aircraft Leasing                30,838,280         38,289,655
                All Other Expenses               9,358,430          8,185,459
                         TOTAL EXPENSES         78,950,165         87,058,744
               PROFIT/(LOSS)               ($3,457,591)        $     298,483
   Source: JPATS

Oversight

      The JPATS Executive Committee (JEC) serves as the primary
mechanism for coordinating activities of the participating agencies. Created
in FY 2000, the JEC is chaired by DOJ’s Assistant Attorney General for
Administration. The JEC consists of the Assistant Director of JPATS, the
Detention Trustee from the Office of the Federal Detention Trustee (OFDT),
                                  -7-
and three representatives each from the USMS, the BOP, and ICE. 39
According to its charter, the JEC assists JPATS with executive guidance to
ensure that the operations meet the needs of the customers and are
appropriate in cost and scope. The JEC meets on a quarterly basis.

      The OFDT interacts with JPATS through the JEC on operational and
administrative issues. For instance, at the behest of the OFDT, a contract
auditing firm began a review in the summer of 2005 that focused on
determining an appropriate staff for JPATS given its current workload. This
review was still in progress as of July 2006.

       Besides the JEC and the OFDT, several outside bodies also formulate
policies that affect JPATS. The Federal Aviation Administration (FAA) is
responsible for the safety of civil aviation, but because JPATS operates under
the Public Aircraft provision, it is exempt from many FAA rules and
regulations that apply to commercial airlines. However, JPATS management
has chosen to adhere to most FAA rules and regulations that relate to
aviation safety, operations, and maintenance.

      The General Services Administration (GSA) also provides guidance for
federal civilian agencies that operate aviation programs. The Interagency
Committee on Aviation Policy (ICAP), created by the GSA, consists of
representatives of federal aviation programs and provides services such as
the Aviation Resources Management Survey (ARMS). ARMS inspections are
conducted by ICAP committee members who examine both administrative
and operational aspects of federal aviation programs. JPATS voluntarily
submits to an ARMS inspection every 4 years.

      In addition, the Office of Management and Budget (OMB) Circular
A-126, Improving the Management and Use of Government Aircraft,
provides the principal guidance for management of federal aviation
programs and for travel on government aircraft.

The Transportation Process

      Significant changes since the late 1990s have transformed how JPATS
transports prisoners and aliens. Besides the revolving fund, JPATS has
automated the scheduling process, and has also switched to an entirely
leased fleet of large aircraft. The following section provides an overview of

      39
          The 1994 JMD study that led to the creation of JPATS recommended the formation
of an oversight body. In FY 1999, a JPATS Advisory Committee was created that eventually
served as a model for the JEC.

                                      -8-
JPATS’s transportation process in its three stages: scheduling for the BOP
and the USMS, transporting scheduled individuals, and billing for services
provided. Because ICE differs fundamentally in its operations from the
USMS and the BOP, the scheduling of ICE movements will be discussed
separately.

Scheduling for the BOP and the USMS

       In April 2000, JPATS converted from a manual scheduling method to
its Automated Prisoners Scheduling System (APSS). APSS is an automated
scheduling system utilized by JPATS, the BOP, and the USMS to schedule
and transport prisoners efficiently. The system electronically receives
transportation requests from the BOP and the USMS, while JPATS personnel
use the system to generate trip itineraries. When using the new system, the
BOP and the USMS initialize a request for movement by transmitting data
through the Justice Detainee Information System to APSS. The required
data include: the full name and identification number of the prisoner, date
of birth, gender, age, and race; the origin and destination of the required
movement; the date when the prisoner will be available for travel and
deadline, if any, for completing the travel; and medical condition and
security level of the prisoner.

      Upon receipt of the request for a prisoner movement, JPATS considers
the following criteria in scheduling the request through APSS:

       •    The BOP typically moves prisoners by bus instead of air to reduce
            costs when the distance of travel is under [SENSITIVE
            INFORMATION REDACTED] miles. 40

       •    Federal judiciary processes under the Speedy Trial Act
            (18 U.S.C. § 3161) must be executed in 10 days and receive high
            priority from JPATS. Judiciary processes that meet this criterion
            include Warrant of Removal, Study and Observation, and the return
            of Study and Observation. 41




       40
          The BOP maintains a fleet of 100 buses that 15 BOP institutions dispatch on a
regular basis. The BOP conducted a total of 2,648 bus trips in FY 2004 and 2,745 in
FY 2005.
       41
         See Appendix VI for a list of federal judiciary processes frequently requested by
the USMS for movements by JPATS.

                                        -9-
       •    Movements of prisoners for disciplinary causes require immediate
            attention from JPATS.

       •    Movements of prisoners for medical reasons require consultation
            with a contract nurse from the U.S. Public Health Service to identify
            requirements for transporting the prisoner.

      APSS tracks the requests by using tables that show seat-limits for both
the air and ground fleet. JPATS issues its weekly flight schedule on the
Thursday preceding the week of departure, although changes may still be
made in APSS until the day before departure. 42

Scheduling for ICE

        ICE transports aliens through JPATS to locations in the continental
United States (CONUS), Central America, and the Caribbean. The CONUS
flights accomplish two goals: (1) transferring aliens among detention
facilities for a wide range of reasons, including administrative purposes such
as immigration hearings and interviews, and (2) transporting aliens of
Mexican origin to an airlift location near the border for deportation via
buses. 43 The foreign flights consist entirely of overseas movements to
remove deportees.

      ICE requests a movement when: (1) the Immigration Courts have
completed the adjudication of a case, and (2) a foreign consulate issues a
travel document for its citizens. ICE does not use APSS for transmitting
requests for movements. Instead, it sends its Form I-216, Record of
Persons and Property Transferred, which is essentially a passenger list, via
facsimile to the hubs on the day of the flight.

     According to ICE officials, ICE has not automated its scheduling
method because it typically does not know who will be available for



       42
        See Appendix VII for the weekly flight schedules of JPATS’ six large planes at the
Oklahoma City, Oklahoma; Alexandria, Louisiana; and Mesa, Arizona hubs.
       43
          JPATS movements of aliens under ICE jurisdiction accounts for only a portion of
ICE’s transportation requirements. According to ICE data, JPATS provided 95,292
movements during FY 2005. In that same timeframe, ICE purchased 62,017 tickets in the
amount of $63,741,543 to address movements of aliens that the agency elected to conduct
outside JPATS.



                                       - 10 -
movement more than one day in advance. 44 In order to save detention
costs, ICE moves aliens as soon as they are ready for transport. According
to the ICE liaison to JPATS, the routes of ICE flights have been well-
established to allow its detention centers to communicate with one another
regarding the number of seats available on flights. ICE posts its forthcoming
weekly flight schedules each Wednesday.

Transporting Scheduled Individuals

       Once the scheduling process is complete, the transportation process
shifts to JPATS’s Flight Operations Branch and the Security Section. The
Flight Operations Branch schedules pilots who are qualified and available for
flight missions, ensures that the Contracting Officers’ Technical
Representatives monitor the maintenance of the aircraft provided by the
contractors, and manages the Flight Following office in Oklahoma City,
Oklahoma that tracks the progress of all JPATS flights. The Security Section
is responsible for scheduling the security guards aboard the flights, either
full-time Air Enforcement Officers (AEOs) or contract Air Security Officers
(ASOs).

      Using its six large leased aircraft, JPATS transports prisoners and
aliens from Oklahoma City, Oklahoma; Alexandria, Louisiana; and Mesa,
Arizona to locations in CONUS, Central America, and the Caribbean. 45
[SENSITIVE INFORMATION REDACTED] 46 [SENSITIVE INFORMATION
REDACTED]

     The flight and security crews complete two documents that serve as
permanent records of a flight mission:

       •    The flight crew completes a flight log, which records the serial
            number of the aircraft, the name of the flight crew, the number of
            stops (also known as “legs”) completed, the time of arrival and
            departure of all legs, and fuel usage.

       44
          For CONUS flights, ICE does not know the aliens who will be available for
movement until the date of the flight. For foreign missions, ICE schedules deportees one
week prior to the departure because the foreign government must receive prior notice of
the return of its citizens.
       45
           The composition and seating capacity of the current fleet is displayed in
Appendix VIII. JPATS used to operate a combination of leased and service-owned large
aircraft, until it sold its service-owned large aircraft in 2004.
       46
            [SENSITIVE INFORMATION REDACTED]

                                       - 11 -
      •   The security crew completes a daily log, which records the names of
          the security officers, and the number of passengers loaded,
          dropped, and on-board at each leg.

      As stated earlier, the hub in Oklahoma City, Oklahoma primarily
transports federal prisoners under the jurisdiction of the USMS and the BOP.
To facilitate the transport of these federal prisoners, the BOP Federal
Transfer Center serves as a layover facility. Opened in 1995 and operated
by the BOP, the transfer center is at the Will Rogers World Airport in
Oklahoma City, Oklahoma near the JPATS hub.

Billing for Services Provided

      After flight missions have been completed, JPATS reconciles the
passenger list through APSS in order to close out the trip. Upon closure,
data from APSS is downloaded to the JPATS Cost Accounting System (JCAS),
which generates billing reports based on the flight hours from the flight log.
The JACS issues billing reports on a monthly basis.

      JPATS participates in the Intra-governmental Payment and Collection
(IPAC) system of the Department of the Treasury. The IPAC provides a
mechanism for federal agencies to make reimbursements through electronic
transfer of funds. JPATS receives reimbursements for its services by
drawing funds directly from the accounts of its customers, as long as JPATS
possesses a properly executed Reimbursable Agreement.

Prior Reviews

       JPATS and specific aspects of its operations have been frequently
examined. Although we provide a more comprehensive list of reviews and
studies in Appendix IX, we highlight in this section some of the more
significant reviews of JPATS and its operations.

       The last OIG review of the overall JPATS operation was completed in
1997, Report number I-97-05, The Justice Prisoner and Alien Transportation
System. In that review, we identified a lack of efficiency in JPATS’s
deportation flights and the slow progress that was being made with the
creation and implementation of the automated scheduling system. We made
five recommendations to improve the overall development of the automated
scheduling system and improve JPATS’s ability to account for operational
costs.


                                 - 12 -
      Based on JPATS’s substantial growth in is operations and finances, the
JEC unanimously approved a management review to determine its efficiency
and effectiveness. JMD performed this broad and comprehensive review of
JPATS and issued a report, dated March 2003, A Management Review of the
Justice Prisoner and Alien Transportation System (JPATS). JMD found
weaknesses in the areas of management oversight, operations, support, and
administration. As a result, JMD made 41 recommendations to JPATS for
improvements in each of these areas.

      The GSA, through its Interagency Committee for Aviation Policy,
Aviation Resource Management Survey program, reviewed JPATS’s overall
operations and issued a report, dated October 7, 2002, Factual ARMS Report
of the Justice Prisoner and Alien Transportation System (JPATS). This
review found weaknesses related to security controls at JPATS hangars and
documentation problems related to aircraft usage and maintenance.
Although the report did not include recommendations, JPATS officials
addressed weaknesses identified in the report by implementing corrective
actions, some of which were in process during our review.

Audit Approach

       The objectives of this audit were to evaluate the USMS’s: (1) ability to
effectively manage the risks inherent in prisoner movements to ensure safe
and efficient transport, and (2) coordination with its three primary
customers regarding the movement of prisoners and aliens.

       To pursue the first objective, we reviewed JPATS’s budget model and
determined how it affects each customer. Also, we interviewed JPATS
officials regarding their efforts to plan for future capacity needs and their
decision to lease aircraft. We reviewed JPATS automated scheduling system
and how it was being used by its customers. Further, we sampled the views
of JPATS employees in order to identify relevant issues relating to the safety
and security of JPATS operation. We reviewed the transportation process
and focused our testing on the scheduling process, adequacy of security
personnel levels, and the reporting of safety and security incidents. We
visited JPATS hubs and reviewed manifest reports and time-and-attendance
records to assess safety and security controls.

       To accomplish the second objective, we interviewed JPATS officials to
identify mechanisms for coordination and agencies who interact with the
program on a regular basis for the transport of prisoners and aliens. We
also obtained applicable manuals and policies from JPATS and other agencies
related to coordination issues.

                                 - 13 -
      Chapter 2 details our review of JPATS’s management controls over its
budget, capacity, leasing of aircraft, and scheduling. In order to evaluate
the sufficiency of controls, we examined the strength and weaknesses of the
new budget model, the adequacy for capacity planning, the strategy for
investing in aviation resources, and the efficiency of the scheduling process.

      Chapter 3 includes our analysis of the risks associated with safety and
security in JPATS’s operations. Specifically, we reviewed the Public Aircraft
provision and how JPATS interprets its exempt status from regulations
imposed on civilian aviation industry. To examine whether the air transport
is conducted safely, we reviewed the credentials of the pilots, selection of
airports with adequate facilities and services, time-and-attendance records
of crew members for compliance with crew rest policies, and aviation safety
reports. Further, we evaluated the adequacy of the security personnel both
aboard the aircraft and at hangars. We also examined the relevancy of seat
configuration on planes and evaluated various reports that serve to
document incidents relating to security concerns.

       In Chapter 4, we examine issues pertaining to coordination between
JPATS and its customers. We reviewed the structure of the JPATS Executive
Committee, the principal method for agencies to communicate on issues
affecting operation of JPATS. We also explored the importance of liaisons
from the customer agency and why the lack of a liaison from the USMS is a
weakness in coordinating that agency’s transportation issues with JPATS.




                                 - 14 -
    CHAPTER 2: INHERENT RISKS IN MANAGEGMENT CONTROLS

     JPATS needs to improve management controls in budgeting,
     capacity planning, procurement of aircraft, and scheduling.
     Exclusive reliance on a “pay-as-you-go” revolving fund to
     reimburse JPATS for the full cost of its operations has frustrated
     customers and caused them to look elsewhere for transportation
     services to reduce costs. In addition, the lack of adequate
     capacity planning has resulted in the under-utilization of some
     JPATS aircraft, particularly on routes that primarily serve the
     needs of ICE. JPATS has entered into short-term leases to
     obtain its six large aircraft. However, JPATS can realize savings
     if it enters into long-term rather than short-term leases.
     Furthermore, the scheduling of JPATS flights has been hampered
     by the unwillingness of ICE to use JPATS’s automated scheduling
     system. These deficiencies have led to inefficient use of
     resources and strained relationships between JPATS and its
     customers.

       Since the late 1990s, JPATS has undergone significant changes,
including: adopting a new budget model, switching to an entirely leased
fleet of large aircraft, and automating the scheduling process. These
changes fundamentally transformed how JPATS does business. While JPATS
successfully implemented its automated system of scheduling prisoners, we
found problems in JPATS’s transition to a new budget model, the lack of
capacity planning for future needs, and the use of short-term rather than
less expensive long-term aircraft leases. We reviewed the management of
these significant challenges and have identified areas for continued
improvement.

Budget Issues

      As previously stated, JPATS began operating on a revolving fund
instead of appropriated monies in FY 1999. According to one JMD official, a
revolving fund is the ideal choice to operate a program when the level of
required service cannot be predicted accurately. JPATS meets this criterion
because the requirements of the federal judiciary are subject to frequent
changes, and the number of prisoner and alien movements is difficult to
predict. When JPATS operated with appropriated funds, the program
encountered difficulties in that it ran out of money each year toward the end
of the fiscal year and had to rely on an infusion of funds from the USMS to
continue operations. Switching to a revolving fund was intended to


                                 - 15 -
eliminate the perennial end-of-year shortages and allow the operation to
continue as long as the customers are able to pay the expenses.

       The original MOU for the JPATS revolving fund outlined the
responsibilities of the participating agencies. The three major customer
agencies agreed to provide Reimbursable Agreements as their guarantee to
pay for services received from JPATS. The customers also agreed to provide
JPATS with annual estimates of anticipated movements as a part of the
planning process for each fiscal year. Further, the customers agreed to keep
all parties informed when the original estimates had to be modified. As the
provider of services, JPATS agreed to develop cost estimates and pricing
strategies based on the requirements of the customer agencies. We
reviewed the budgetary process and found that JPATS has adhered to the
stipulations of the MOU. Generally, customers also adhered to the
stipulations of the MOU, with one exception relating to the USMS, which we
discuss in the USMS: Budget Shortfalls sub-section below and more fully in
Chapter 4.

       JPATS follows the accounting method published in OMB Circular A-126,
Improving the Management and Use of Government Aircraft to recover both
the fixed and variable costs of its operations. 47 Initially, JPATS charged its
customers on a cost-per-seat basis. Beginning in FY 2003, JPATS changed
its pricing strategy by charging its customers for the number of flight hours.
This change resulted from an external study that recommended adopting an
activity-based costing method to charge customers a more accurate amount
for the actual use of services. Under this costing method, JPATS calculates
the hourly rate based on the estimated flight hours required by customers
for the forthcoming fiscal year. According to the JPATS budget analyst,
prices were not affected by the change in allocation methodology from cost-
per-seat to an hourly rate. However, the hourly rate prices represented a
better allocation of costs than the cost-per-seat prices.

       Besides computing the hourly rates for its customers prior to each
fiscal year, JPATS also holds a mid-year pricing conference where JPATS and
customer officials review the amount of services already rendered for that
fiscal year and the remaining requirements. If the requirements for the

       47
           OMB Circular A-126 defines variable costs as “costs that vary depending on how
much the aircraft are used,” and fixed costs as any expenses “that result from owning and
support[ing] the aircraft and that do not vary according to aircraft usage.” A JPATS official
defined fixed costs as expenses of the infrastructure that are required to support the
program; these expenses must be paid regardless of the usage of the aircraft. The fixed
costs of JPATS may be further divided into four sub-categories: (1) fixed direct costs,
(2) general and administrative, (3) overhead, and (4) scheduling.

                                        - 16 -
remainder of the fiscal year change, JPATS recalculates rates to ensure
accurate billing and full recovery of its costs.

      Although the revolving fund was intended to address JPATS’s financial
shortfall, our review identified problems associated with this budget method
that are different for each customer.

USMS: Budget Shortfalls

      For three consecutive fiscal years beginning in FY 2003, the USMS had
to cope with budget shortfalls that affected its usage of JPATS. The amounts
of the shortfalls were $3.0 million in FY 2003, $7.0 million in FY 2004, and
$9.9 million in FY 2005.

      A budget official at USMS headquarters stated that the USMS account
used to reimburse JPATS for its services is vulnerable because of the size of
the account, which generally ranks among the top three programs in terms
of expense in the USMS’s budget. 48 When an agency-wide budget shortfall
occurs, this budget official said the amount allocated for JPATS inevitably
decreases.

      In FY 2003, the USMS had an overall budget shortfall of $3 million, as
well as an additional $3 million reduction specifically targeted at the usage of
JPATS. According to the USMS headquarters budget official, the FY 2003
budget was approved late in spring 2003 and did not have a noticeable
impact on the usage of JPATS services by the USMS District offices.

       In FY 2004, the USMS resolved the shortfall by allowing its district
offices to continue using JPATS funds with no restrictions until funds
designated for JPATS usage were depleted. When the funding ran out in
September, the final month of the fiscal year, the USMS prioritized the use
of JPATS for court-mandated movements and paid for these movements
using USMS discretionary funds.

       In FY 2005, the USMS modified its approach to address another
budget shortfall. Instead of allowing unrestricted use of JPATS throughout
the year, the USMS in January 2005 reduced its estimated flight hours and
cut its funding to the district offices for air transportation by about 10
percent. This strategy was intended to allow for the transportation to

      48
          The top three programs in the USMS budget are employee salary and benefits,
rent payments to the GSA for offices at federal courthouses, and funding to reimburse
JPATS for transporting USMS prisoners.

                                     - 17 -
continue for the remainder of the fiscal year, albeit at a reduced level. In
May 2005, however, the USMS reverted to the original number of flight
hours after it reallocated funding from human resources to JPATS services. 49

BOP: Selective Use of JPATS

      The BOP selectively transports prisoners under its jurisdiction through
JPATS in order to manage transportation costs. In addition, the BOP
operates the Federal Transfer Center, a facility in Oklahoma City, Oklahoma,
near the JPATS hub, that provides layover lodging for both BOP and USMS
prisoners that are in the process of being transported by JPATS. During our
audit field work, we noted the following practices adopted by the BOP to
determine the most economical mode of movements to accomplish its goals.

      Bus Fleet. As noted earlier, the BOP has determined that inmate
movements of less than [SENSITIVE INFORMATION REDACTED] miles are
best achieved through its bus system. Movements above [SENSITIVE
INFORMATION REDACTED] miles are occasionally conducted by bus when
the departing and arrival points fall within the BOP’s normal bus routes.

        Medical Charters. Most of the time, the BOP charters its own medical
airlifts instead of using the small planes owned by JPATS that operate out of
the hub in Oklahoma City, Oklahoma. 50 These airlifts transport prisoners
from BOP institutions to the agency’s medical facilities. 51 According to BOP
officials, it can arrange charter services at half the rate charged by JPATS.
Besides the expense, BOP officials also stated that chartering a non-JPATS
airplane has proven more convenient for scheduling purposes. The following
table shows the amount spent by the BOP in medical airlifts outside of JPATS
from FYs 2003 to 2005.



       49
           A USMS headquarters budget official informed us that in order to pay for
movements of prisoners by JPATS, the USMS reallocated funds originally set for travel,
training, and quality step increases. A hiring freeze was also used to provide the districts
more funding for JPATS.
       50
          The two small planes at the Oklahoma City, Oklahoma hub transported a total of
1,932 passengers in FY 2004, including 1,894 from the USMS, 27 from the BOP, 3 from ICE,
and 8 from non-federal sources. In FY 2005, the same planes transported a total of 879
passengers, including 868 from the USMS, 8 from the BOP, and 3 from non-federal sources.
       51
          The BOP’s medical facilities are located in Butner, North Carolina; Carswell, Texas;
Devens, Massachusetts; Lexington, Kentucky; Rochester, Minnesota; and Springfield,
Missouri.

                                        - 18 -
                       COST OF BOP MEDICAL AIRLIFTS
                            FY 2003 TO FY 2005
                       Fiscal year         Medical Airlifts
                          2003                  $   6,748,295
                          2004                      6,964,395
                          2005                      6,101,556
                          TOTAL                 $19,814,246
                    Source: BOP

ICE: Attempting to Fill Empty Seats

      Since the inception of JPATS in 1995, ICE has experienced tremendous
growth in air movements and has become JPATS’s largest customer and
contributor to the revolving fund. The number of air movements to
transport ICE’s aliens increased 826 percent since 1995. Because JPATS is
funded entirely by its revolving fund, it must recover the entire hourly rate,
even when seats are empty, as is the case when ICE’s deportation flights
return to the JPATS hubs empty. During our audit, the ICE’s liaison to JPATS
and ICE’s chief of air transport expressed their frustration at how much their
agency is being charged by JPATS.

      Flight missions on behalf of ICE often have empty seats, especially on
the return flight from overseas deportation missions and, to a lesser degree,
on certain CONUS flights that depart with an empty cabin and pick up
passengers at various points en route. The empty flight segments are costly
to ICE, which must pay the full cost of the entire flight.

      In the past, JPATS explored selling unused seats on ICE missions to
other federal agencies. However, this option has not yet proved practical,
mostly because those other agencies would have to pay for the entire plane,
regardless of the number of passengers. Under an alternative approach
approved in late 2005 by the JEC, JPATS now charges other agencies only
for seats actually used and bills the cost of the empty seats to ICE.

Alternative to the Revolving Fund

      One possible funding alternative for JPATS that emerged during our
audit is the “hybrid” budget model that would combine appropriated and
revolving funds. The FAA employs a hybrid budget for its Hangar Six
Program, which serves the aviation needs of both the FAA and other federal



                                  - 19 -
agencies. 52 The program’s funding comes from an annual congressional
appropriation for fixed costs and payments from user agencies that receive
aviation services.

      According to JPATS officials, if JPATS received appropriated funding to
adopt the hybrid model, it would budget for fixed costs – expenses that
support its infrastructure – through an annual appropriation and would bill
customers only for variable costs. Such a model would significantly reduce
the hourly rate that JPATS charges its customers. To illustrate such
reductions, the following table shows the FY 2005 rates by flight hour
charged by JPATS by customer and type of aircraft.
                                                        53
                                FY 2005 JPATS RATES

                                                                              Total Rate
                   Aircraft         Fixed Costs          Variable Cost         by Flight
Customer           Frame          Dollars  Percent      Dollars  Percent         Hour

BOP             Large             $ 5,248       55     $ 4,306       45           $ 9,554
USMS            Large                5,248      55        4,306      45             9,554
ICE             Large                5,166      64        2,922      36             8,088
Non-Federal   Large                  5,248      55        4,306      45             9,554
              Small:
USMS          Oklahoma City          2,693      58        1,972      42             4,665
              Small:
ICE           St. Croix              1,673      82           361     18             2,034
              Small:
USMS          St. Croix              1,673      82           361     18             2,034
Source: OIG analysis of JPATS data

      As shown in the table above, fixed costs account for 64 percent of the
hourly rate in FY 2005 for ICE. Under a hybrid model, JPATS would rely on

       52
            Examples of the missions conducted by Hangar Six include transporting FAA
officials to events; delivering NTSB personnel to crash sites; transporting explosive
materials used by the Transportation Security Administration’s canine training programs;
and assisting in emergencies, such as providing transportation for air marshals guarding
flights since September 11, 2001.
       53
           The table shows the rates per flight hour charged by JPATS, as well as the
percentage of the fixed and variable costs of the total rate. The hourly rate must be
recovered in its entirety by JPATS, whether a seat is occupied or empty. When a plane is
used by one customer, that customer is responsible for the entire amount. When a plane is
used by more than one customer, the rate is proportionally charged to each agency,
depending on how many seats are used. This ratio of occupancy is then used to spread the
cost of the empty seats proportionally to the customers sharing the same flight.

                                       - 20 -
appropriations for that 64 percent of the total rate while charging ICE for the
remaining 36 percent. Similarly, the hybrid model would reduce the rate
charged for the use of small planes at the hub in Oklahoma City, Oklahoma
by 58 percent, which represents the fixed costs portion. This reduction may
provide a possible incentive for the BOP to consider using JPATS instead of
chartering medical airlifts from private vendors. Overall, the total costs for
the program would not change by switching to a hybrid model, but it would
lessen the financial burden currently borne by JPATS’s customers by
appropriating fixed costs directly to the JPATS account. The resulting lower
rates would encourage customers to increase their use of JPATS, thereby
reducing the number of empty seats and providing a more efficient use of
federal aircraft.

Capacity Planning

      According to JPATS officials, the demand for prisoner and alien
transportation has grown since 2000, as shown in the following table.

                    JPATS AIR MOVEMENTS FROM 2000 THROUGH 2005
                                                                          Percentage
                                                                            Change
                                                                          from 2000
Customer     2000      2001      2002       2003      2004      2005        to 2005
USMS         51,702     52,601    54,789     59,820    63,721    62,402      21%
BOP          26,091     24,586    25,793     26,014    23,532    23,670      -9%
ICE/INS      74,693     75,530    82,103     89,373    89,269    95,876      28%
  Total      152,486   152,717   162,685    175,207   176,522   181,948      19%
Source: JPATS

      Because JPATS is focused on providing transportation services to its
customers, it is important for JPATS to be a demand or need-driven
organization. This means that JPATS and its operations should be directly
linked to the level of service that customers need in order to safely and
economically transport prisoners and aliens. To assess JPATS’s ability to
plan for capacity in order to fulfill customers’ needs for prisoner and alien
transport, we interviewed JPATS officials and evaluated relevant documents
in two categories. First, we examined whether JPATS has conducted long-
range plans to address anticipated changes in passenger movements based
on historical trends. Second, we reviewed flight manifest records to
determine whether the capacity of JPATS’s air fleet is being optimally used
to maintain an efficient operation.



                                   - 21 -
Long-Term Capacity Planning

        Based on the pattern of past growth and expected future demands, it
is critical that JPATS adequately plan for its future capacity needs. By not
planning for future capacity needs, JPATS may be caught off guard by
changes in demand and customer needs and find itself in a position where it
cannot transport prisoners and aliens in an efficient and effective manner.

       An important element in any capacity planning effort is the ability to
forecast future needs. According to JPATS management, JPATS does not
forecast or project prisoner and alien movements more than one year into
the future. 54 The closest that JPATS came to having multi-year forecasting
capability was contained in its 1997 five-year strategic plan. The plan
described the proposed development of a model to forecast and predict
JPATS’s future transportation demands based on the number of prisoners
and aliens in the federal prison system and those awaiting trial or
adjudication. The purpose of the model was to link historical trends that
affect demand with projections for future needs. However, JPATS did not
develop the forecasting model upon the issuance of the strategic plan. 55

       According to the Assistant Director of JPATS, information in the 1997
strategic plan was believed to be obsolete by the time the plan was
completed. However, regarding the specific forecasting project, we disagree
that its concept was obsolete, because the proposed model would have
provided a mechanism for JPATS to assess its future needs in air transport
and develop necessary strategies and plans to fulfill those needs.

       We asked JPATS management whether it is actively planning for future
capacity needs. According to JPATS’s Assistant Director, JPATS does not
plan for future capacity needs because aviation programs change frequently
and are subject to many variables which would render such planning
obsolete by the time it is completed. We disagree and believe that the
difficulty in performing capacity planning is outweighed by the benefits that
can be realized from such an effort. The benefits include JPATS having the
ability to plan for future increases in demand and thereby incorporate

       54
           According to JPATS officials, before the start of each fiscal year JPATS obtains
from its customers projected prisoner movements for the upcoming fiscal year and
budgetary information for the upcoming three years. These projected movements are used
to establish the JPATS budget and revolving fund. However, in our discussion regarding
capacity planning, we are focusing on forecasting models that extend beyond one year.
       55
          Upon the expiration of the five-year strategic-plan in 2002, JPATS did not develop
a new strategic plan.

                                       - 22 -
changes to its operations, if needed, in areas such as infrastructure, air fleet,
or personnel rather than reacting at the last minute.

       Further, we asked the Assistant Director of JPATS what is being
planned for JPATS to cope with the anticipated rise in prisoner and alien
movements. He told the OIG that JPATS is capable of meeting the increase
in customers’ demand for transportation services. Specifically, he said that
JPATS would lease additional planes on an emergency basis and hire more
contract guards to serve customers. In our opinion, this illustrates the need
for longer-term capacity planning because leasing additional planes on an
emergency basis is not only reactive, but is also more expensive compared
to longer-term aircraft leases.

Overall Use of Air Fleet

      In reviewing capacity planning, we also examined the efficiency of
passenger loads on JPATS’s flights. One consequence resulting from the lack
of capacity planning has been the under-utilization of available seats on
JPATS aircraft. The table below shows the use of available seats on the six
large leased planes at the three major JPATS hubs.




                                  - 23 -
            OVERALL USE OF AVAILABLE SEATS ON JPATS FLIGHT MISSIONS 56

                  Oklahoma City              Alexandria                   Mesa
                         Average                   Average                   Average
               Number Percentage       Number Percentage          Number Percentage
                  of      Use of          of        Use of           of       Use of
               Flights    Seats        Flights      Seats         Flights      Seats
  Oct 2003       36         80.8          44           50.8          40           50.3
  Jan 2004       35         75.0          37           57.2          39           47.2
  Apr 2004       41         80.4          42           53.4          40           49.4
  Jul 2004       35         78.3          37           44.8          41           46.0
 Subtotal        147        78.7          160          51.6         160          48.2
  Oct 2004       30         76.0          38           47.9          42           42.9
  Jan 2005       27         76.7          35           41.5          39           39.1
  Apr 2005       35         65.0          42           47.0          39           42.9
  Jul 2005       38         57.3          43           45.3          40           43.8
 Subtotal        130        67.7          158          45.5         160          42.2
  Oct 2005       38         79.2          39           55.7          42           44.0
     Total    315           74.2         357           49.4         362          45.1
Source: OIG analysis of JPATS accounting data

      The noticeably higher occupancy of flights originating from Oklahoma
City, Oklahoma indicates a more efficient use of available seats by the USMS
and the BOP. Even after removing the empty segments from the
deportation flights, our audit disclosed a lower usage of available seats on
ICE missions originating at Alexandria, Louisiana and Mesa, Arizona than on
USMS and BOP missions.

      In our analysis, we noted another issue in the current flight schedule
of ICE missions. One of the two large planes from the Mesa, Arizona hub
currently flies each weeknight to regularly scheduled west coast locations to
transfer detainees among the ICE facilities and to deport illegal aliens of
Mexican origin. 57 Although JPATS officials stated that the west coast is
generally considered as a region with a high number of illegal aliens, our
analysis shows a generally low usage of available seats on these flights.

       56
           Our scope included the first month of each fiscal quarter, starting with October
2003 and ending with October 2005. We relied on the accounting reports used by JPATS for
billing purposes to determine the number of passengers on board. In calculating the
percentage of use of seats we did not include segments of ICE missions with an empty cabin
when returning from overseas deportation flights, and certain CONUS missions that leave
the hub empty and pick up prisoners or aliens at subsequent stops.



                                       - 24 -
                             OVERALL USE OF SEATS ON
                       THE MESA, ARIZONA EVENING FLIGHTS 58
                                     Number of     Percentage
                       Month          Flights     Use of Seats
                           Oct 2003          20                43.7
                           Jan 2004          19                43.2
                           Apr 2004          21                43.3
                            Jul 2004         21                39.8
                 Subtotal FY 2004            81                42.5
                           Oct 2004          20                32.2
                           Jan 2005          21                35.3
                           Apr 2005          18                32.9
                           July 2005         20                33.9
                 Subtotal FY 2005            79                33.6
                           Oct 2005          20                31.2
                           TOTAL          180                  37.3
                Source: OIG analysis of JPATS data

      OMB Circular A-126 requires federal agencies to “use their aircraft in
the most cost-effective way to meet their requirements.” The low usage of
the available seats on the Mesa, Arizona evening flights – less than 45
percent full, on average, during any of the months reviewed – points to a
possible inefficiency in JPATS’s operations. While the program’s objective is
to transport the prisoners and aliens according to the requirements of the
customer agencies, we believe JPATS should review the use of its aircraft
and amend flight schedules to maintain a more optimal use of its resources.

Investing in Aviation Resources

       JPATS provides air transport for prisoners and aliens through its fleet
of large and small aircraft. As mentioned in the previous chapter, JPATS
transitioned from service-owned and leased large aircraft in the late 1990s
to an entirely leased fleet of large aircraft today. Currently, JPATS leases its

       57
          The “night loop” flight originates in Mesa, Arizona, in the late afternoon and
proceeds to several locations in the western United States to move aliens to detention
centers and pick up aliens being transported to drop-off points near the Mexican border for
deportation. The flight returns to Mesa, Arizona late at night.
       58
         Our scope included the first month of each fiscal quarter, starting with October
2003 and ending with October 2005.

                                       - 25 -
large aircraft on a one-year short-term basis. However, recent studies
performed by the GAO and the OFDT indicate that on a long-term basis,
purchasing the aircraft yields the most savings for an aviation program. If
funding for purchase is not available, the GAO study suggests that long-term
leases provide more savings than short-term leases. 59

      JPATS operates its air transport on a short-term lease awarded in late
2004; the fleet from this lease includes two Boeing 737-400s for the
Oklahoma City, Oklahoma hub; two Boeing 737-300s for the Alexandria,
Louisiana hub, and two McDonnell Douglas MD-83s for the Mesa, Arizona
hub. The lease has a one-year base with the option to renew for two
additional terms, each renewal lasting one year. In late 2005, JPATS
renewed this term contract for another year.

      According to our interviews with 23 JPATS pilots, 20 believed that
these leased aircraft have operated well and have been maintained
adequately by the contractor. 60 Of the remaining three pilots, two provided
a negative response, while one pilot did not answer our question. 61

       Despite the generally positive feedback from JPATS’s pilots on the
quality of airplanes leased under short-term arrangements, recent studies
have shown that purchasing aircraft is the best option for aviation programs.
In its 2004 report, the GAO explored the following methods of acquiring
aircrafts: (1) purchase, (2) operating leases on short- or long-term, and
(3) lease-to-purchase, where the programs remit lease payments and
eventually own the planes at the end of the lease. According to the GAO’s
analysis, purchasing is the most economical option over the course of the
assets’ useful life. The GAO cited a 2003 study by a GSA’s consultant that
based its analysis on an aircraft purchased at $10 million. Such a purchased
aircraft would have a net cost of $3.5 million at the end of ten years after
deducting the residual value of the asset. The same aircraft would have cost
$5.5 million at the end of the same period for a five-year lease-to-purchase
       59
           In June 2004, the GAO issued its report, Federal Aircraft: Inaccurate Cost Data
and Weakness in Fleet Management Planning Hamper Cost Effective Operations. This report
examined seven federal aviation programs in terms of data accuracy, methods of acquiring
aircraft, and operational and safety standards.
       60
         Our sample consists of 10 pilots from the Oklahoma City, Oklahoma hub; 8 pilots
from the Alexandria, Louisiana hub; and 5 pilots from the Mesa, Arizona hub.
       61
          Of the two negative responses, one pilot stated that the contractor is probably
doing the minimum requirements on maintenance to get by, while the other pilot said that
the contractor appeared to not take actions on minor maintenance issues until these
developed into more significant concerns.

                                       - 26 -
option; $9.6 million for a ten-year operating lease; and $18 million for ten
terms of one-year operating lease. Based on these figures, a short-term
lease in one-year increments would be the most expensive option.

      Despite the savings that may be realized through purchasing assets
such as aircraft, most federal air transportation programs have chosen
operating leases, in part, because of how these expenses are reported in an
agency’s budget. According to the GAO’s analysis, operating leases seem
“cheaper” because programs are required to record only the annual lease
payment for the budget authority. By contrast, for lease-to-purchase
options, programs must record the net present value over the entire life of
the contract, a significantly higher figure than operating leases.

      The OFDT reached a similar conclusion in its 2003 study, Aircraft
Replacement Procurement Strategy for the Justice Prisoner and Alien
Transportation System (JPATS). In comparing the option to lease and
purchase, the OFDT states that although short-term leases appear attractive
because of the low cost on a short-term basis, they provide no ownership of
the assets at the end of the terms. The OFDT also identified the Boeing
737-700 as a possible candidate for purchase. This aircraft would cost
$49 million per aircraft, with a useful life of 30 years. The study by the
OFDT compared the cost of purchasing six such aircraft with leasing similar
type of planes, as follows.

       COMPARISON BETWEEN PURCHASING AND LEASING SIX AIRCRAFT
                                                  Estimated total cost
                Type of aircraft Age of aircraft over 30-year life cycle
                                                  (with maintenance)
Purchase           Boeing 737-700            New            $540 Million

Ten-Year Lease     Boeing 737-300    8 Years or Under       $840 Million
Source: OFDT

       Based on the above analysis, the OFDT concluded that purchasing the
aircraft would cost more in the short-term, but operating leases do not offer
ownership of the assets and cost more in the long-term. Nevertheless, the
OFDT conceded that because “funding is not available for the purchase of
aircraft; therefore, leasing remains the only option to modernize the JPATS
fleet.”

      JPATS officials told the OIG that they recognized the benefits of
purchasing the aircraft instead of leasing. However, they said that JPATS
must rely on operating leases because of the exorbitant initial outlay of
capital required to purchase planes. Of the various lease options, JPATS had
                                    - 27 -
attempted to procure its air fleet through a long-term lease in 2002 that
would be cheaper than the current short-term lease, but that attempt was
unsuccessful and had to be aborted in 2003. 62

       As of the time of this audit, JPATS officials stated that they are
renewing their efforts to procure leased planes on a long-term basis with
assistance from JMD. Additionally, JPATS has announced a new contracting
officer position to increase the total number of contracting officers from two
to three, which would ensure more adequate staffing for such a major
procurement project.

Scheduling Efficiency

       Even before the creation of JPATS in 1995, the USMS recognized the
need to automate the scheduling process for prisoner transportation.
Prior to implementation of APSS in April 2000, the BOP and the USMS
transmitted requests for prisoner movements to JPATS and a teletype
machine transferred the incoming data to index cards. JPATS schedulers
then typed the data onto itineraries and manifests. Modifying original
requests was a cumbersome process, requiring schedulers to annotate
changes in longhand and manually search for requests through long stacks
of index cards.

       The switch to APSS in April 2000 enhanced the scheduling process by
storing the transportation request information in a database, which
eliminated extraneous word processing and enabled the BOP and the USMS
to access the application directly through the Justice Detainee Information
System. APSS allowed schedulers to arrange movements, modify and
update requests, generate a variety of reports, and query information stored
inside the database. Originally designed solely to schedule air
transportation, APSS was also adapted to schedule ground movements soon
after its initial deployment. Since its inception, APSS has been continually
upgraded to reflect changes in JPATS operations.

Scheduling Practices for the USMS and the BOP

     APSS is employed in two fundamentally different ways by the
customer agencies. For USMS and BOP prisoners, the scheduling process

       62
             JPATS began the solicitation for a long-term lease of large aircraft in 2002. The
initial solicitation and a subsequent revision resulted in two protests. One protest involved
disagreement with the performance requirements specified in the solicitation, while the
other protest involved restrictive competition.

                                         - 28 -
begins when a USMS district office or a BOP institution electronically submits
a request to JPATS headquarters and ends when a scheduler lists the
individual on a flight manifest.

      Although the name of the application includes the word “automated,”
APSS does not generate trip itinerary automatically. Instead, the schedulers
must consider each request and apply their knowledge of the federal judicial
processes to schedule an individual in the best and most efficient way. The
supervisors of the Scheduling Section told us it takes approximately three
years for a new scheduler to master the complexity of the criteria used in
arranging prisoner transportation. Nevertheless, the 13 schedulers who
arrange movements for the USMS and the BOP unanimously endorsed the
conversion to APSS because the application greatly streamlined the
scheduling process. APSS has helped JPATS by reducing the amount of time
needed to process transportation requests and ensure that flights are as full
as possible.

       In addition, the scheduling process may be enhanced by providing
security officers with electronic manifest during flight missions. Currently,
APSS generates an initial flight manifest and allows for as many revisions
(called “supplements”) as needed until the day before a trip. On the day of
a trip, the security crew prints out the most updated supplement from APSS
before the flight mission to verify the number of passengers on each leg.
Our review of the manifests and supplements at the Oklahoma City,
Oklahoma hub found that these reports were frequently updated in longhand
by the security crew because of last-minute changes. The following table
shows the frequency of such on-the-spot revisions in our sample.




                                 - 29 -
                    FREQUENCY OF LAST-MINUTE CHANGES TO
                   THE FLIGHT MISSIONS SCHEDULED BY APSS 63
                                                Number of
                          Number of                Legs
     Fiscal                 Flight   Number of   Requiring                Changes in
     Year         Month    Missions     Legs     Changes                  Percentage
                  Oct 2003             36           127            107               84
                  Jan 2004             36           128              94              73
      2004        Apr 2004             41           143            125               87
                  Jul 2004             35           132            121               92
                 Subtotal            148            530            447               84
                  Oct 2004             32           114              97              85
                  Jan 2005             27             96             90              94
      2005        Apr 2005             35           133              72              54
                  Jul 2005             38           140              74              53
                 Subtotal            132            483            333               69
      2006        Oct 2005             38           164            113               69
          TOTAL                      318          1,177            893               76
  Source: JPATS Flight Manifests

       The frequent last-minute changes to the manifests demonstrate the
fluid nature of JPATS service, with the USMS and the BOP routinely
transporting a different number of prisoners than originally planned. At
present, the security officers aboard the aircraft annotate in ink all such
revisions to the manifests. We also noted that security officers performed
mathematical computations on manifest reports in order to account for the
number of passengers and available seats. We believe that having an
electronic manifest would facilitate the process of updating passenger
information during the flight. The electronic manifest would assist security
officers in planning for available seats and coping with unexpected new
passengers during the flight.

     At the conclusion of each flight, the annotated manifest is forwarded to
JPATS headquarters where the schedulers record changes from the

       63
           Our scope included the first month of each fiscal quarter, starting with October
2003 and ending with October 2005. We reviewed the number of passengers on board
during each segment of the flight missions in these months. The passenger count from
APSS reports provided the number originally scheduled, while the passenger count from the
billing report showed the number actually transported. We counted a leg as one that
required change when the data from the two sources disagreed.

                                       - 30 -
annotated manifests into APSS. After a flight mission is updated in APSS,
the information is downloaded to JPATS Cost Accounting System (JCAS) in
order to initiate the billing process. To ensure that JPATS bills its customers
accurately, JCAS generates reports showing actual passengers transported
and flight hours used that are reviewed for accuracy by customer liaisons to
JPATS.

       We believe that it may be advantageous to provide an electronic flight
manifest to the security crew on the day of the flight and to permit them
editing functions. The frequent changes to the original manifests point to a
potential scenario that could hamper JPATS flight missions. For example, if
all legs on a flight encountered last-minute additions, the passenger cabin
could become full early in the planned itinerary. Such a situation could
conceivably require JPATS to reject new passengers at later segments of the
same flights. Our interviews with JPATS’ Chief Inspector of Operations as
well as the BOP liaison to JPATS revealed that JPATS has not denied
prisoners from boarding in this scenario; nevertheless, the potential for such
occurrences exist. An electronic manifest would provide security officers
with better knowledge of the seating requirements at subsequent stops and
would enable them to better coordinate with the USMS and the BOP. Also,
having security officers electronically update the flight manifests would
result in a more up-to-date APSS, save time for the schedulers that review
flight missions in APSS, and help ensure that the billings are accurate.

ICE: Limited Use of APSS

      Although use of APSS has proven beneficial for the BOP and the USMS,
the application is used only on a limited basis by ICE, which still relies
mainly on a manual method of scheduling. According to ICE officials, they
have no plans to migrate to APSS.

       On the day of the flight missions, ICE offices forward a passenger list
by facsimile to JPATS hubs in either Alexandria, Louisiana, or Mesa, Arizona
and the hubs forward these lists to JPATS headquarters in Kansas City. Two
JPATS schedulers at the headquarters enter the passenger information into a
module within APSS after the flight has been completed. This module only
tracks the passengers transported because it is not designed to schedule an
individual on a trip. At the conclusion of each ICE flight mission, the
schedulers reconcile the passenger information they receive from the
security officers on the flight with the data initially entered into APSS. Upon
completion, the flight missions are closed out and passenger data are
downloaded to the JPATS Cost Accounting System for billing purposes.


                                  - 31 -
       As discussed earlier, flights for BOP and USMS prisoners are more fully
scheduled than those for ICE aliens. When we asked ICE officials why they
do not fully utilize APSS, they stated that the agency generally has too short
of a lead time to electronically schedule aliens in APSS. Specifically, an ICE
official told us that ICE does not use APSS more extensively because it often
does not know which aliens will be ready for domestic transport until the
date of the mission. However, for international deportation flights ICE must
give the foreign government one week’s notice of the names of its citizens
who will be returned. Although we understand that the short lead time for
domestic flights may not always allow for advanced electronic scheduling,
we believe that the one-week lead time on foreign flights provides enough
time to electronically schedule those passengers into APSS, which will save
data entry and result in flights that are more full.

Conclusion

      Our review concluded that JPATS needs to improve its management
controls in budget, capacity planning, leasing arrangements, and scheduling.
The transition from an appropriated budget to a revolving fund has
generated new concerns on finances for the customers: the high hourly rate
forces BOP to look elsewhere for its medical flights, while the pricing
strategy requires ICE to pay for empty seats. In examining these budget
issues, we identified an alternative “hybrid” budget model that, if
implemented, would noticeably reduce customer costs.

       In addition, based on historical trends it is anticipated that customers’
future capacity needs will increase, but we found that JPATS has not been
actively planning in this area. Furthermore, we identified several areas for
improvement in how JPATS utilizes its fleet of airplanes. Specifically, ICE
flights tend to have a lower rate of usage than flights containing USMS and
BOP prisoners, suggesting a pattern of inefficient use of aviation resources.
In reviewing the current leasing arrangements, we concluded that JPATS
could save money by switching to long-term rather than short-term leases
for its aircraft. Finally, the transition to an automated scheduling method
has benefited the USMS and the BOP, but limited participation by ICE
reduces optimal use of the JPATS fleet.




                                  - 32 -
Recommendations

     We recommend the USMS:

1.   Work with the JEC to explore the possibility of instituting a hybrid
     budget model to fund JPATS through both an annual appropriation and
     payments from customers based on usage.

2.   Ensure that JPATS performs long-term capacity planning, including the
     development of a forecasting model to project future needs in prisoner
     and alien transport and the resources to meet those needs.

3.   Work through the JEC to revise the flight schedules of ICE to reflect
     actual needs and improve the efficient use of available seats.

4.   Replace its short-term leases for large aircraft with less expensive
     long-term leases.

5.   Work through the JEC to encourage ICE to schedule overseas flights in
     APSS.

6.   Provide security crew members with online editing access to APSS for
     updating the flight manifest.




                                 - 33 -
      CHAPTER 3: INHERENT RISKS IN SAFETY AND SECURITY

      JPATS lacks sufficient controls to ensure that it properly enforces
      the regulations it has developed on safety and security. For
      example, JPATS does not have an adequate mechanism to
      determine whether it meets its objective of maintaining a ratio of
      [SENSITIVE INFORMATION REDACTED] to every [SENSITIVE
      INFORMATION REDACTED] passengers. Our review of 1,028
      flights showed 130 flights where the number of security crew on
      board was below the required ratio. Furthermore, we found that
      the hangars were chronically understaffed. [SENSITIVE
      INFORMATION REDACTED] Similarly, we did not find a reliable
      system for JPATS to monitor the required rest period for crew
      members so that flights were staffed by well-rested employees.
      Of the 1,248 flight assignments that we reviewed, we noted 57
      where the crew members appeared not have received the
      appropriate rest period. These deficiencies expose JPATS
      operations to safety and security risks.

       JPATS faces risks in transporting prisoners and aliens that fall into two
categories: safety of the flight operations and security controls of the
program. To evaluate the safety of the aviation program, we interviewed
employees of the flight operations and examined a variety of documentation
that included:

      •   pilots’ qualifications
      •   service limitations
      •   crew rest records
      •   aviation safety records
      •   the Public Aircraft provision.

      We also assessed the security controls of the program by interviewing
employees in the Security Branch; obtaining policies, manuals, and reports;
and examining flight manifests. In this assessment, we focused on the
following topics:

      •   adequate size of security crews
      •   [SENSITIVE INFORMATION REDACTED]
      •   reporting security incidents.




                                   - 34 -
        Overall, we found that JPATS has inadequate controls to ensure that it
fulfills its safety and security objectives. 64 Specifically, we identified the
following significant security and safety issues: security crew size on
airplanes was inadequate on 130 out of 1,028 flights we reviewed, security
crews at JPATS hangers were chronically understaffed for [SENSITIVE
INFORMATION REDACTED] of the shifts we reviewed, and there was no
reliable system for monitoring required rest periods for crew members. In
addition to these significant findings, we identified other areas for
improvement, such as maintaining credentials for pilots and tracking security
incidents.

The Public Aircraft Provision

       JPATS operates its air transportation as public aircraft and is therefore
exempt from most of the regulations imposed on civilian aircraft by the FAA.
Pub. L. No. 106-181 (2000) defines “public aircraft” as “an aircraft used only
for the United States Government,” and lists the “transport of prisoners,
detainees, and illegal aliens” as one of the eligible governmental functions.
However, JPATS has voluntarily implemented policies to mirror most of the
requirements followed by civilian aviation operators. According to the
officials we interviewed, JPATS followed these aviation policies to reduce the
safety and security risks of an aviation program, and to reduce the liability of
the government in the event of mishaps. 65

       JPATS has developed its own Flight Operations Procedures and Manual
(FOPM), which contains the principal internal regulations relating to its air
transportation. JPATS also seeks to adhere to FAA regulations on
qualifications of flight-crew members, aircraft operations, reporting of
accidents and incidents, survival equipment, training, and aircraft
maintenance.




       64
            See Appendix X for JPATS’ safety philosophy.
       65
           The National Transportation Safety Board’s (NTSB) October 2001 report, Public
Aircraft Safety NTSB/SS-01/01, the most recent of such reviews, consulted two major
agencies that maintain statistics on public aircraft: the FAA and the GSA. Based on the FAA
data from 1996 to 1999, the NTSB calculated an accident rate of 3.66 per 100,000 flight
hours for non-military, non-intelligence public aircraft. Using the GSA data from the same
period, the NTSB calculated an accident rate of 4.58 per 100,000 flight hours for non-
military, non-intelligence federal aircraft. The JPATS flew a total of 11,746 flight hours in FY
2004, and 10,517 flight hours in FY 2005.

                                         - 35 -
Pilots’ Qualifications

       JPATS pilots must possess the following documents to prove their
professional qualification: a pilot’s license, a current Second Class Airman
Medical Certificate, and evidence of completion of an FAA-approved flight
and ground school. 66 The FOPM requires pilots to receive annual recurrent
training for each type of aircraft flown. The FOPM further states that pilots
who fail to complete the recurrent training will be barred from piloting a
specific type of aircraft until the deficiency has been remedied.

      The documentation of pilots’ professional qualifications is centrally
maintained at JPATS’s Oklahoma City, Oklahoma office where a JPATS pilot
has the collateral duty of maintaining the records. We reviewed records for
32 pilots: [SENSITIVE INFORMATION REDACTED] from Oklahoma City,
Oklahoma; [SENSITIVE INFORMATION REDACTED] from Alexandria,
Louisiana; [SENSITIVE INFORMATION REDACTED] from Mesa, Arizona; and
[SENSITIVE INFORMATION REDACTED] from St. Croix, U.S. Virgin Islands.
The results of our review are as follows.

       •    Pilots’ Licenses. We located current pilots’ licenses for all JPATS
            pilots.

       •    Medical Certificates. We were unable to locate the current medical
            certificates for one pilot from Alexandria, Louisiana and three pilots
            from Mesa, Arizona.

       •    Training Records. We were unable to locate the most recent
            recurrent training records for one pilot from Oklahoma City,
            Oklahoma and three pilots from Mesa, Arizona.

       During our follow-up review in April 2006, the missing medical
certificates and training records were located by JPATS.

       Nevertheless, JPATS has no formal procedure or controls to ensure
that the central files for pilots are complete. In our judgment, JPATS needs
a system to ensure that complete records of pilots’ credentials are
maintained so as to provide assurance that flight missions are conducted by
qualified professionals. Complete documentation on pilots would also assist
JPATS management in monitoring the training, health, and professional
standing of its pilots.

       66
          According to the FAA, a Second Class Airman Medical Certificate is valid for one
year plus the remaining days of the month when the medical examination is administered.

                                       - 36 -
Background Investigation

       The USMS classifies JPATS pilots in the High Risk group in terms of
position sensitivity. According to the USMS policy, employees in the High
Risk group are required to undergo a successful background investigation
prior to their initial appointment, followed by reinvestigation every 5 years.

      When we examined the personnel files of the 32 pilots, the files
showed evidence of favorable results from background investigations by the
Office of Personnel Management (OPM). None of the files noted any security
concerns from their personal background or prior employment that would
disqualify them from performing their present duties. Furthermore, all but
one of the 32 pilots were investigated or reinvestigated in a timely manner.
The one exception involved a pilot who was also a military reservist, whose
re-investigation was interrupted by a military tour to Iraq in 2003. 67

Service Limitations at the Mesa, Arizona Airport

      To ensure that JPATS conducts its flights at airports that provide the
necessary services and safety controls, the FOPM does not authorize any
operations at airports that lack operating control towers and fire rescue
systems. The FOPM states that deviation from this policy requires a waiver
from the Chief of Flight Operations.

      We identified one significant deviation from this policy. The Williams
Gateway Airport in Mesa, Arizona, which serves as a JPATS hub does not
have a control tower that operates on a 24-hour basis. 68 Furthermore, the
Airport relies on a local fire station three minutes away for aircraft rescue
and fire fighting services. JPATS operated from this airport without a waiver
for more than four years, from January 2001 to November 2005. JPATS
began operating in Mesa, Arizona, in July 2000 as a pilot project to replace

       67
          The most recently completed investigation of this pilot occurred in 1997, and OPM
contacted him in October 2002 for reinvestigation. When OPM contacted him again in early
2003 to correct the required paperwork, he had already been activated for military duty.
OPM re-initiated the investigation in March 2006.
       68
           The FAA codifies its certification requirements of airports in 14 CFR § 139. To
become a certified facility under 14 CFR § 139, an airport must undergo and pass a series of
reviews conducted by the FAA, including inspections on administrative functions, movement
area, aircraft rescue, firefighting, fueling facilities, and night operations. The Williams
Gateway Airport in Mesa, Arizona, received limited certification in accordance with
14 CFR § 139 in March 1999.

                                       - 37 -
El Paso, Texas, as a hub for transporting aliens in the custody of the former
INS. JPATS began this pilot project even though the Mesa, Arizona airport
did not have a control tower that operated on a 24-hour basis.
Consequently, JPATS Assistant Director issued a waiver in June 2000 for 120
days. The waiver stated that an extension could be granted if the
inadequacies continued to exist at the end of the term.

      During our audit, JPATS was unable to provide evidence of an
extension to the June 2000 waiver. In November 2005, while our audit was
in progress, the Chief of Flight Operations issued a new waiver so that JPATS
could continue to operate from the Mesa, Arizona airport indefinitely despite
the limited hours of the control tower. However, the issuance of a waiver
did nothing to address the inherent risk in operating night flights through an
airport that lacks the services of a control tower.

       During our audit period, the control tower at the Williams Gateway
Airport operated between 6:00 a.m. and 9:00 p.m. daily. After 9:00 p.m.,
pilots must communicate directly with each other or rely on the control
tower at the nearby airport in Phoenix to navigate local air space. The
limited hours of the control tower at Mesa, Arizona poses a potential safety
risk because the Mesa, Arizona hub schedules evening flights from Monday
through Friday. These flights return to Mesa, Arizona around midnight.

       Although no safety incidents had occurred in Mesa, Arizona as a result
of this shortcoming, the risk of navigating the airspace without an
operational control tower at night when visibility is considerably lower than
during the day increases the potential that other aircraft in the area will not
see the JPATS flight on its approach into Mesa, Arizona. According to JPATS
management, it has requested that ICE change the evening flights with
daytime flights, in part, to address the safety issues at the Mesa airport.
However, ICE has not been willing to change its evening flights to daytime
flights, because the evening flights enabled the agency to synchronize with
the schedule of immigration courts and deport aliens immediately after the
adjudication process is complete. Nevertheless, we believe that this safety
concern needs to be addressed by JPATS management.

Crew Rest Records

      Adequate rest has been on the National Transportation Safety Board’s
(NTSB) annual list of “Most Wanted Transportation Safety Improvements”
every year since 1990. In an August 1999 testimony on pilot fatigue before
the Subcommittee on Aviation, Committee on Transportation and
Infrastructure, House of Representatives, the Director of NTSB’s Office of

                                  - 38 -
Research and Engineering stated that it is difficult to attribute the cause of
accidents directly to fatigue. However, the Director stated that scientific
evidence “clearly reflects the critical need for adequate rest for those people
operating safety-critical equipment.” As one of its 2006 Most Wanted
Transportation Safety Improvements, the NTSB urges transportation
operators to “set working hour limits . . . and provide predictable work and
rest schedules based on current fatigue research, circadian rhythms, sleep
and rest requirements.”

      As a public aircraft program, JPATS is not required to comply with
regulations on duty-period limitations and rest requirements imposed by the
FAA on the civilian aviation industry. Nonetheless, JPATS has voluntarily
complied with FAA regulations by promulgating JPATS Program Directive
No. 4, JPATS Flight and Cabin Security Crew Duty Time, Crew Rest
Limitations, and Pre-Mission Crew Duty Report Times. The directive outlines
specific procedures and rules for JPATS pilots, Air Enforcement Officers, and
Air Security Officers to ensure that they remain physically alert and vigilant
while performing their assigned duties.

     For pilots, JPATS directive sets limits on both the duration of their duty
day and their total flight hours. Cumulatively, a pilot cannot fly more than
38 hours in any 7 consecutive days, 100 hours in any calendar month, and
1,000 hours in any calendar year.

     Additionally, the directive dictates the rest period that pilots, AEOs,
and ASOs are entitled to receive based on the length of their duty day.
According to the most recent revision of the directive, flight and security
crews are entitled to the following number of hours of crew rest.




                                  - 39 -
                        DUTY DAY AND ENTITLED CREW REST
              Duty Period in Hours 69      1 to 14  15  16                   16 or more
                                    70
     Entitled Crew          Pilot                      12        13    14           24
     Rest in Hours      AEO and ASO 71              9            12    12           24
    Source: JPATS Program Directive No. 4, Revision 5

       To avoid staffing a flight mission with employees who are too fatigued
to effectively function in their duties, the directive forbids any flight or
security crew members to accept assignments that would exceed the duty
limits. Instead, crew members must notify JPATS’s Flight Following office




       69
           JPATS’s Program Directive on crew rest specifies the duty reporting and ending
time for pilots, AEOs and ASOs according to the hub locations and types of flight missions.
For instance, pilots report to the hubs one hour prior to the scheduled departure at all
locations except for the Oklahoma City, Oklahoma hub, where they must report an hour and
a half instead prior to departure. In the absence of a system that verifies whether an
employee reported to or leaving the hub in accordance with the Program Directive, we relied
on the time and attendance records as the best estimates of the duty period served by our
samples.
       70
          While JPATS attempts to mirror the FAA’s regulations on civilian operators, a direct
comparison of crew rest requirements for pilots between JPATS and civilian operators is not
possible. The reason is that the FAA calculates its crew rest requirements for pilots by
scheduled flight time, defined as the “pilot time that commences when an aircraft moves
under its own power for the purpose of flight and ends when the aircraft comes to rest after
landing.” JPATS, on the other hand, includes pre- and post-flight activities in calculating the
duty period. The FAA codifies the crew rest requirements for pilots in 14 C.F.R. § 121.471
as follows:
                     FAA CREW REST REQUIREMENTS FOR PILOTS
             Scheduled Flight Time in Hours  Less than 8  8                     9
             Crew Rest Requirements in Hours      9      10                    11
            Source: 14 C.F.R. § 121.471
       71
          The FAA also regulates the rest periods of flight attendants, defined as an
individual assigned to “duty in an aircraft during flight time and whose duties include but
are not necessarily limited to cabin-safety-related responsibilities.” The FAA calculates flight
attendants’ crew rest requirements based on duty period, defined as “elapsed time between
reporting for an assignment involving flight time and release from that assignment”; the
required rest period may be reduced if certain criteria are met. The FAA’s crew rest
requirements for flight attendants are shown in the following table.

             FAA CREW REST REQUIREMENTS FOR FLIGHT ATTENDANTS
               Scheduled Duty Periods in Hours 14 or less 14 to 20
               Crew Rest Requirements in Hours     9         12
              Source: 14 C.F.R. § 121.467



                                         - 40 -
when flight missions encounter unavoidable delays. 72 Upon notice, the
Flight Following office may adjust the next day’s flight schedule to allow for
adequate rest or schedule a new crew.

      Alternatively, in extreme situations JPATS may issue a written waiver
of the mandatory crew rest period. Four persons are authorized to issue
such waivers: the Assistant Director of JPATS, the Chief of Flight
Operations, the Chief Inspector of Operations, and the Chief of Business
Management.

      JPATS has not developed a system to monitor the duty periods of flight
and security crew members and their entitled rest periods. To test
adherence to the crew rest policy, we reviewed the time-and-attendance
records of pilots, AEOs, and ASOs stationed at Oklahoma City, Oklahoma;
Alexandria, Louisiana; and Mesa, Arizona. 73 We tracked flight assignments
for these employees for two periods: from October to November 2004, and
from April to May 2005. We examined a total of 1,248 flight assignments
and identified 57, or 4.57 percent, where the crew members might not have
received the entitled rest periods.

                                   REVIEW OF CREW REST
                                     Oklahoma
                                        City    Alexandria              Mesa        Total
     No. of flight
     assignments reviewed                      319              466         463      1,248
     Flight assignments
     subject to waiver                          18                25          14         57
    Source: JPATS

       In 55 of the 57 instances, the employees missed their entitled crew
rest between 15 minutes and 5.75 hours. The two remaining cases involved
two security officers whose duty periods exceeded 16 hours and thus were
entitled to 24 hours of crew rest the next day. However, they accepted new
flight assignments and missed their entitled crew rest by 16.75 hours.

       According to the Chief of Flight Operations, JPATS rarely issued
waivers for crew rest because of the increased liabilities associated with
flight missions staffed with employees not sufficiently rested. However,

       72
         Located at JPATS’s hub in Oklahoma City, Oklahoma, the Flight Following office is
responsible for tracking the progress of all JPATS flights. The flight log of all JPATS flights is
also maintained by the Flight Following office.
       73
          Our sample included three employees of each of the three position types for all
three locations for a total of 27 employees.

                                          - 41 -
JPATS was unable to provide the exact number of such waivers because it
has no method of tracking issuances of such waivers. According to the
Flight Following office, the crew rest waiver, once issued, is attached to the
log of the applicable flight and there is no separate file to segregate the
waivers and document such occurrences.

      Compounding the complexity of crew rest procedure is the separate
handling of waivers for flight and security crews. Waivers for pilots are
maintained by the Flight Following office; waivers for the security crew are
the responsibility of the Chief Deputy U.S. Marshal (CDUSM) stationed at the
Oklahoma City, Oklahoma hub. However, the CDUSM told us that he did not
have a recordkeeping system for crew rest waivers issued for the AEOs and
the ASOs.

        Furthermore, the CDUSM stated that implementing the crew rest policy
is difficult for practical reasons because the need for a waiver often arises
when a flight mission returns late, typically after normal business hours. Of
the four officials qualified to confer waivers, three are stationed in Kansas
City, Missouri. Consequently, those individuals typically grant waivers via
telephone to facilitate the flight schedule for the following day. However,
they do not always follow up the verbal waivers with written authorization.
Even when written waivers have been received, the CDUSM conceded that
he did not have the administrative support to help him create and maintain a
historical file for review and analysis.

      Our interviews with JPATS pilots, AEOs, and ASOs yielded a wide
spectrum of opinions on JPATS’s crew rest policies. Of the 23 pilots we
interviewed, 19 believed that the management has complied with the crew
rest policy, while the remaining 4 believed otherwise. On the other hand, 15
of the 18 AEOs and 22 of the 33 ASOs we interviewed believed that they
have been over-scheduled beyond the crew rest policy.

      One AEO stated that he functions well with fewer then five hours of
sleep each night. Several ASOs stated that they had been conditioned to
long working hours from their prior experience as law enforcement officers.
In contrast to those views, other employees told us the long working hours
have exacted tolls on their health and personal lives. Many employees said
that their mandatory crew rest has been routinely violated and they have
not always received the required written waivers.

      The type of flight missions conducted by JPATS also complicates the
adherence to crew rest policies. One supervisor stated that it is possible for
security crew members to recover from long working hours by resting on the

                                  - 42 -
return leg of overseas deportation flights. These missions consist of
transporting aliens to a foreign destination, then returning to the U.S. with
an empty cabin. Because there are no aliens to monitor on the return flight
to the hub, some security guards can rest. According to the supervisor,
some guards have told him that if they have recuperated this way, they
should be able to accept the next day’s flight assignment despite the late
return of such flights.

Aviation Safety Records

      To assess the safety records of JPATS, we reviewed information from
the NTSB as well as JPATS Safety Officer. Our review on the safety records
of JPATS disclosed no aircraft accidents that resulted in fatalities. 74 As of
March 2006, the NTSB database contained one accident and two incidents
involving JPATS from March 1997 to January 2006, as detailed in the
following table.




       74
           The FAA regulations 49 C.F.R. § 830.2 define an aircraft accident as “an
occurrence associated with the operation of an aircraft which takes place between the time
any person boards the aircraft with the intention of flight and all such persons have
disembarked, and in which any person suffers death or serious injury, or in which the
aircraft receives substantial damage.” The same source defines an incident as “an
occurrence other than an accident, associated with the operation of an aircraft, which
affects or could affect the safety of operations.”




                                       - 43 -
         NTSB INVESTIGATIONS OF JPATS ACCIDENTS AND INCIDENTS
  No.        Date         Location                    Synopsis
                                    Accident. A small plane owned by JPATS
                                    was extensively damaged during a training
                                    flight, and the plane was declared un-
                                    airworthy and liquidated as
                      Anchorage,    unsalvageable. 75 The two pilots did not
   1      05/19/2000
                      Alaska        sustain injuries. The NTSB attributed the
                                    probable cause to the “pilot’s improper
                                    remedial action and his failure to maintain
                                    directional control to the airplane during
                                    landing.”
                                    Incident. A section of the wing flap of a
                                    Boeing-727 owned by JPATS fell off during
                      Wood Dale,    the landing phase of a flight. None of the
   2      10/17/2000
                      Illinois      108 people on board suffered injuries. The
                                    NTSB attributed the incident to inadequate
                                    maintenance of the flap segment.
                                    Incident. A McDonnell Douglas MD-82
                                    leased by JPATS experienced a partial loss
                                    of engine power during the takeoff of a
                      Anchorage,
   3      09/26/2004                flight. None of the 131 people on board
                      Alaska
                                    suffered injuries. The NTSB attributed the
                                    incident to an inadequate preflight
                                    inspection.
Source: NTSB

      The JPATS Safety Officer provided us information on other events
related to aviation safety. According to his information, the six events
occurred from 2001 to 2004, as shown in the following table.




        75
           According to the FAA’s Advisory Circular 43.13-1B, an aircraft is airworthy “when
an aircraft or one of its component parts meets its type design and is in a condition for safe
operation.”

                                        - 44 -
           JPATS RECORDS OF AVIATION ACCIDENTS AND INCIDENTS
  No.      Date                Location                     Synopsis
                                              Incident. An aircraft part broke
                                              after a normal landing. No injuries
  1     10/12/2001    Ft. Huachuca, Arizona   were reported.
                                              Incident. An aircraft part broke
                                              after parking the aircraft. No
  2     09/02/2003    San Diego, California   injuries were reported.
                                              Accident. A landing gear failed and
                                              exploded, requiring an emergency
                                              landing. All crew members and
                                              passengers were evacuated in 97
  3     10/01/2003    Chicago, Illinois       seconds without injuries.
                                              Incident. Takeoff had to be aborted
  4     09/26/2004    Anchorage, Alaska       because of a damaged engine part.
                                              Incident. Damage to an aircraft
                                              staircase was discovered after the
                                              plane was transferred to a
  5     07/26/2004    Oklahoma City, Oklahoma maintenance facility.
                                              Incident. The aircraft wing was
  6     11/16/2004    Mesa, Arizona           damaged during taxi for departure.
Source: JPATS Safety Officer

       According to JPATS Safety Officer, the safety records of flight
operations underwent a difficult phase after JPATS deactivated its service-
owned large planes in March 2002. JPATS faced a dilemma: the program
had released its own planes for sale, but had not yet procured a leased fleet
on a long-term basis as planned. In order to continue its mission of
transporting prisoners and aliens, JPATS began operating using leased
planes from a Basic Ordering Agreement (BOA). The BOA facilitates the
contracting process through pre-negotiated agreements between service
provider and receiver. Consequently, the BOA is ideally suited for
procurement when an unexpected need arises. Several JPATS management
officials stated that JPATS tried but did not succeed in procuring large
aircraft through the BOA from nationally recognized commercial airlines,
because the number of the aircraft required by JPATS, six, was too small to
justify the transaction from a business standpoint. Vendors who responded
to JPATS’s request had inventory of aircraft that were not of the highest
quality. According to a JPATS quality assurance specialist in aircraft
maintenance, the airplanes provided through the BOA all had the required
airworthiness certificates to validate their operability. 76 Nevertheless, these

        76
          The FAA prohibits any person from operating a civil aircraft unless it has an
“appropriate and current airworthiness certificate” and an “effective U.S. registration certificate”;
see 14 C.F.R. § 91.203 (a)(1) and (2). The airworthiness certification process includes: (1) the
owner, operator or agent registering the aircraft, (2) the applicant submitting the application to
the FAA, and (3) the FAA determining whether the aircraft is safe for operation.

                                           - 45 -
planes were not maintained to the high standards as the large planes that
JPATS once owned.

       Of the six aviation safety events reported to us by the Safety Officer,
five involved planes supplied under the BOA. The most significant event
involved a 2003 accident in Chicago cited above, which required JPATS to
evacuate everyone aboard the aircraft. Although no personal injuries
resulted from the incident, the aircraft sustained damage. The investigation
performed by JPATS concluded that the explosion was the result of faulty
components. Nevertheless, the vendor filed a claim against JPATS that is
not resolved as of March 2006.

     In late 2004, JPATS ceased to operate planes obtained through the
BOA. JPATS now obtains large aircraft under a short-term lease. 20 of the
23 JPATS pilots we interviewed believed that the current leased large aircraft
operate well and are adequately maintained by contractors. 77

Adequate Size of the Security Crew

       JPATS publishes its policies on security controls aboard flight missions
in its Cabin Security Crew Policy and Procedures Manual (Cabin Manual).
The Cabin Manual, last updated in January 2004, defines key security
officers of the flight missions, outlines the crew structure, and promulgates
policies on scheduling, crew duty limits, dress codes, perimeter security,
boarding requirements, and medical regulations.

      JPATS employs full-time Air Enforcement Officers (AEOs) and contract
Air Security Officers (ASOs) for operational tasks. Besides maintaining order
inside the passenger cabin during flight missions, the ASOs also maintain
security at the hangars [SENSITIVE INFORMATION REDACTED]. Of the two
functions, security aboard the aircraft takes precedence over the security of
the hangar and JPATS [SENSITIVE INFORMATION REDACTED] reassigns
ASOs from hangar security to flight missions when a staffing shortage
occurs.


       77
           During our field work, we observed a maintenance event on November 10, 2005,
in Mesa, Arizona, which caused a delay of a flight mission. The seal in the front wheel well
had become aged and cracked, allowing a burnt rubber smell to seep into the cockpit during
takeoff. The pilot returned the plane to the hub twice, and continued with the flight mission
after the maintenance contractor determined that the cracked seal was not an aviation
safety hazard. No crew rest violations occurred from the delay, however, because the
following day was a federal holiday without any flight missions. The seal was replaced over
the weekend.

                                        - 46 -
Security Crew During Flight Mission

       The Cabin Manual recommends a specific ratio between security
officers and passengers. [SENSITIVE INFORMATION REDACTED]




                          [SENSITIVE INFORMATION REDACTED]




      Some ICE officials [SENSITIVE INFORMATION REDACTED] security
crew [SENSITIVE INFORMATION REDACTED] for deportation flights involving
aliens whose only offense is an immigration violation. However, some of the
security officers whom we interviewed told us of instances when they
learned that deportees had criminal records in their home countries.
Because [SENSITIVE INFORMATION REDACTED]. 78 [SENSITIVE
INFORMATION REDACTED]

       Besides the security crew, the cabin staffing of JPATS flights typically
includes a flight nurse from the U.S. Public Health Service and employees
from the customer agencies. For example, the BOP generally assigns two of
its employees to facilitate the transfer and exchange of inmates. Similarly,
ICE assigns employees to accompany aliens on its flights. For overseas
flights, JPATS sends a flight engineer to address any mechanical issues the
aircraft may experience outside the United States.




       78
           For deportation flights, JPATS classifies the deportees into three categories:
(I) voluntary returns and administrative deportees; (II) criminal aliens who have been
ordered deported and whose crimes are non-violent; and (III) criminal aliens who have
been ordered deported and whose crimes are of a violent nature. The Cabin Manual
specifies different restraint methods according to the category of deportees.

                                        - 47 -
      Prior to each flight mission, the SOIC schedules the required number
of ASOs to ensure adequate coverage, delegates specific roles to them, and
assigns them a seat inside the cabin.

      The SOIC records the flight mission principally by completing an SOIC
Daily Log. Currently, the log consists of two parts: the top portion lists the
names of the cabin crew members; the lower portion records the actual
number of passengers received and discharged at each designated stop
along the flight mission. At the conclusion of the flight mission, the log is
attached to the Automated Prisoner Scheduling System’s manifest report
and stored for archive purposes at the hub offices.

      Presently, data from the logs are not entered into any automated
information system. As a result, it is not possible for JPATS management to
determine whether it has met its objective of staffing full flights with an
adequate size security crew. According to the Chief Inspector of Operations,
a major challenge in staffing the flights has been the unreliability of the
ASOs. Personal-service contract guards are not full-time employees;
consequently, JPATS cannot compel them to report for duty. JPATS
management knows that last-minute absences of the ASOs have occurred on
occasion, resulting in flights with a security crew not sufficient to yield the
recommended ratio of officers to passengers. However, JPATS management
has no data to establish whether absenteeism of the ASOs is serious enough
to have an adverse impact on flight security.

      To test the adherence to the policy of staffing flights to yield the
recommended ratio between security officers and passengers, we reviewed
the logs to obtain information on the crew size as well as the seat utilization
reports for the number of passengers aboard the aircraft from Oklahoma
City, Oklahoma; Alexandria, Louisiana; and Mesa, Arizona. 79 The following
table displays the results of our review of a total of 1,028 flights. 80




       79
           The seat utilization reports are generated by the accounting system used by
JPATS to bill the customers. The number of prisoners and aliens aboard each flight mission
in these reports have been verified by customers.
       80
         For each flight, we use the leg with the highest number of passengers as
numerator and the size of the security crew as the denominator in order to obtain the ratio.

                                       - 48 -
                RATIOS OF PASSENGERS TO SECURITY CREW MEMBERS




                         [SENSITIVE INFORMATION REDACTED] 81   82




           Source: OIG analysis of data from JPATS Daily Log

       Overall, we found that in 87.4 percent of the flights we reviewed (898
of 1,028 flights), the average passenger-to-crew ratio exceeded the
recommended ratio [SENSITIVE INFORMATION REDACTED]. JPATS officials
explained that the Security Branch always tries to staff the large aircraft with
a crew as [SENSITIVE INFORMATION REDACTED] as possible, even when
the plane is not full upon departure. This strategy ensures that the crew
size would be adequate if the plane becomes filled in later segments due to
last-minute additions to the passenger list. However, our testing found 130
flights in our sample where the security crew size did not meet the
recommended ratio between security officers and passengers.




      81
           [SENSITIVE INFORMATION REDACTED]
      82
           [SENSITIVE INFORMATION REDACTED]



                                       - 49 -
Security Crew at Hangars

      The current JPATS policy states that each JPATS hangar should be
protected by [SENSITIVE INFORMATION REDACTED] security guards
[SENSITIVE INFORMATION REDACTED]. 83 [SENSITIVE INFORMATION
REDACTED] Because of staff shortages, however, JPATS rarely staffs
hangars with the required number of security guards. Instead, the hubs
have adopted different work schedules to address a shortage of guard
services. [SENSITIVE INFORMATION REDACTED]

                     HANGAR SECURITY SHIFTS SCHEDULE




                      [SENSITIVE INFORMATION REDACTED] 84




     Source: JPATS

      To evaluate hangar security staffing, we reviewed the number of
security guards scheduled for the various shifts based on the scheduling
reports from the Security Branch for the hangars in Oklahoma City,




     83
          [SENSITIVE INFORMATION REDACTED]
     84
          [SENSITIVE INFORMATION REDACTED]


                                 - 50 -
 Oklahoma; Alexandria, Louisiana; and Mesa, Arizona. 85 We reviewed a total
 of 2,472 shifts from the scheduling reports for these locations and found that
 all three sites were chronically understaffed, [SENSITIVE INFORMATION
 REDACTED]. 86

                    SECURITY STAFFING LEVEL AT JPATS HANGARS




                          [SENSITIVE INFORMATION REDACTED] 87




Source: OIG analysis of data from JPATS

       Officials from JPATS explained that security of flight missions always
 has priority over hangar security. When ASOs fail to report for flight
 missions, contract guards originally assigned to hangar security will be called
 upon to assist in flight missions. Although we understand the need for
 adequate security aboard JPATS flights, the absence of a sufficient number




        85
           The scope of our testing was the same as that used in reviewing the adequacy of
 the security crew aboard JPATS aircraft. For FYs 2004 and 2005, we reviewed the first
 month of each fiscal quarter: October, January, April, and July. For FY 2006, we reviewed
 October 2006 only.
        86
             [SENSITIVE INFORMATION REDACTED]
        87
             [SENSITIVE INFORMATION REDACTED]



                                          - 51 -
of security guards at hangars exposes both the hangars and the aircraft to
potential harm. 88

[SENSITIVE INFORMATION REDACTED]




                     [SENSITIVE INFORMATION REDACTED] 89




       88
           In May 2005, the OIG issued its United States Marshals Service’s Use of
Independent Contractors as Guards, Audit Report 05-13, where we recommended that the
USMS expand the use of guard company contracts as a way to address the difficulties of
using individual contract guards. JPATS officials stated that they have explored this option
and identified a guard company that would charge $2.4 million a year for a regional
contract, or $3 million for a national contract. JPATS presented these options at a JEC
meeting, where customers voted against this alternative.
       89
            [SENSITIVE INFORMATION REDACTED]



                                        - 52 -
             [SENSITIVE INFORMATION REDACTED] 90   91




90
     [SENSITIVE INFORMATION REDACTED]
91
     [SENSITIVE INFORMATION REDACTED]

                             - 53 -
                     [SENSITIVE INFORMATION REDACTED]




Reporting Security Incidents

      JPATS uses several types of documentation to report security
incidents. The Cabin Manual instructs security officers to report incidents
using the Field Report, Form USM-210, and attach a completed copy to the
weekly flight packet. A copy of the report is to be forwarded to the
supervisor of JPATS’s Security Section. If security guards use [SENSITIVE
INFORMATION REDACTED] to subdue a prisoner or alien, they must also file
a Firearms Discharge Report, Form USM-133. According to the Chief
Inspector of Operations, all reports relating to JPATS security are centralized
with a CDUSM stationed in Oklahoma City, Oklahoma.

Firearms Discharge Report, Form USM-133




                    [SENSITIVE INFORMATION REDACTED] 92




      92
           [SENSITIVE INFORMATION REDACTED]

                                  - 54 -
                      [SENSITIVE INFORMATION REDACTED]


Field Reports, Form USM-210

      We reviewed a total of 117 reports of security-related incidents that
occurred in FYs 2004 and 2005; 112 of these were submitted on Form
USM-210 and the remaining 5 were submitted by electronic messages. We
examined all 117 reports to determine what types of incidents they
documented and whether they had received proper supervisory review. All
but 14 of the reports had evidence of supervisory review. The table below
shows our findings.

                 REPORTS OF INCIDENTS: FYS 2004 AND 2005
                             Oklahoma
   Incident type                City    Alexandria   Mesa          Total
   Between JPATS employees           6         2           0         8
   Between JPATS and
   other agency employees            1         0           2         3
   Involving passengers on the
   ground                            7         0           4        11
   Involving passengers in flight    11        0           0        11
   Aircraft malfunction on the
   ground                            2         0           1         3
   Aircraft malfunction in flight    0         0           1         1
   Delay of flight other than
   aircraft malfunction              6         2           0         8
   Medical issues of prisoners       23        6           2        31
   Property issues of prisoners      30        1           0        31
   Others                            8         0           2        10
     TOTAL                          94         11         12       117
   Source: JPATS

       At first glance, this table suggests that flights originating at Mesa,
Arizona and Alexandria, Louisiana had fewer incidents than flights originating
from Oklahoma City, Oklahoma. However, our audit found that the file
maintained by the CDUSM was incomplete. For instance, during our field
work in Alexandria, Louisiana we obtained copies of four Forms USM-210
relating to an incident aboard a March 3, 2005, deportation flight to
Honduras that the CDUSM did not maintain in his files.

      Our review showed a deficiency in JPATS’s current system of reporting
security incidents. After employees have completed Form USM-210, the
                                    - 55 -
supervisor at the hub reviews the reports and forwards a certain number to
the CDUSM at the hub in Oklahoma City, Oklahoma for further review.
Because the Cabin Manual does not specify the criteria that the supervisors
should use in deciding which reports require further review from the CDUSM,
it is impossible to determine the total number of incidents that actually
occurred.

      We also believe that information on the USM-210 reports may be
useful if it is entered into a database for future reference. For example,
security incidents involving prisoners and aliens aboard JPATS flights could
be entered into a module in APSS. If an agency requested transportation for
an individual with a history of security incidents, schedulers using APSS
would be able to identify prior security issues quickly and alert the Security
Branch prior to flight missions.

Conclusion

       JPATS generally has adequate policies on aviation safety and security.
However, our audit revealed that the program has inadequate controls to
manage adequately the safety risks associated with operating an aviation
program and security risks of transporting prisoners and aliens. JPATS
cannot reliably track its adherence to its policies on crew rest and the size of
the security crew onboard planes. Additionally, JPATS cannot properly
account for the credentials of the pilots and the number of security reports
filed. To address these and other issues, JPATS should implement reliable
controls to adhere to its own security and safety objectives.

Recommendations

      We recommend the USMS:

7.    Develop a tracking system to ensure that pilot files contain current
      copies of their licenses, medical certificates, and training records.

8.    Create a method to monitor the duty hours of flight and security crews
      to ensure that all crew members receive adequate rest between flight
      assignments.

9.    Create a mechanism to follow up verbal waivers for crew rest with a
      written record, and a central location for maintaining written waivers
      for both flight and security personnel.



                                  - 56 -
10.   Implement a mechanism to track the ratio between security officers
      and passengers to ensure that flight missions adhere to the ratio in the
      Cabin Manual.

11.   Ensure that JPATS adheres to its Program Directive on hangar security,
      including maintaining an adequate level of security at hangars.

12.   [SENSITIVE INFORMATION REDACTED]

13.   Implement a mechanism to comprehensively track security incidents
      and related reports.

14.   Create a module in APSS to capture information from incident reports
      to assist in scheduling prisoners and aliens with prior security issues
      aboard JPATS flights.




                                 - 57 -
         CHAPTER 4: COORDINATION AMONG THE AGENCIES

      We found mixed results in our examination of the coordination
      between JPATS and its customer agencies. JPATS employs
      several mechanisms to enhance coordination, including the
      stationing of agency liaisons at JPATS headquarters and
      activities of the JPATS Executive Committee (JEC) and its various
      subcommittees. Although these mechanisms have a positive
      effect on coordination between JPATS and its customers, we
      identified several problems such as the composition of the JEC,
      the lack of a USMS liaison to JPATS until early 2006, insufficient
      space for the temporary lodging of prisoners in transit, and the
      occasional failure of customer agencies to comply with JPATS
      policy on medical screening of passengers. JPATS needs to
      address these issues systematically to enhance coordination on a
      long-term basis.

      Successful transport of prisoners and aliens requires coordination
among all the parties involved in JPATS operations. As part of this audit, we
assessed the adequacy of coordination at two levels. First, we examined
whether JPATS has a mechanism for coordinating all participating agencies
at an administrative level to ensure that the concerns of all parties are
addressed. Second, we interviewed officials at JPATS and participating
agencies to identify issues that might result in interruptions to the prisoner
and alien transportation process.

Coordinating Functions of the JEC

      The JEC serves as the primary means for participating agencies to
meet and discuss matters of mutual interest. Created in 2000, the JEC
replaced its predecessor, JPATS Advisory Committee, which had similar
functions. As mentioned previously, the JEC meets on a quarterly basis and
is presided over by DOJ’s Assistant Attorney General for Administration.
Members of the JEC include the Assistant Director of the USMS for JPATS,
the Detention Trustee from the OFDT, and three members each from the
USMS, the BOP, and ICE. The JEC provides oversight on the operations of
JPATS and reviews significant decisions on the program. Each JEC member
has one vote, although the chairman has veto power.

      Several subcommittees of the JEC allow the participating agencies to
address particular aspects of JPATS’s operations and recommend changes to
the programs. These subcommittees are as follows:


                                 - 58 -
       •    JPATS Working Group, 93

       •    Transportation Committee, 94

       •    Right Size/Pricing Methodology Committee,

       •    Aviation Safety Council, and

       •    Security Training Focus Group.

      Of these subcommittees, the JPATS Working Group is the most
important because of its overall role in reviewing and submitting operational
recommendations to the JEC for discussion at its quarterly meetings. In
addition to the subcommittees, JPATS management conducts weekly
conference calls to address operational issues with representatives from the
principal customer agencies.

      While these forums allow participating agencies to raise issues and
concerns, some JPATS officials have expressed concerns about the JEC. For
instance, the current voting structure of the JEC favors the customers more
so than the JPATS management. The reason is that JPATS is represented at
the JEC by its Assistant Director who has one vote; by contrast, the three
customers — the USMS, the BOP, and ICE — have three representatives
each, everyone of whom has one vote for a total of nine votes. This
configuration favors the customers but cripples JPATS whenever it proposes
changes that the customers may deem unfavorable. As a result, one JPATS
management official told us that the subcommittees and the voting structure
have the potential of clogging the decision-making process and diluting the
authority of the JPATS Assistant Director.

      We noted an example of such adverse effects in JPATS’s attempt to
restructure its security crew. As already mentioned in our testing on the
adequacy of the security crew, OIG’s May 2005 audit report 05-13, United
States Marshals Service’s Use of Independent Contractors as Guards,
recommended that the USMS expand the use of guard company contracts as
a way to address the difficulties of using individual contract guards. JPATS

       93
          The membership of the JPATS Working Group includes representatives from
JPATS, JMD, the USMS, the BOP, ICE and the OFDT. The mission of the JPATS Working
Group is to “identify and discuss issues and bring recommendations or presentations to the
JEC.” The JPATS Working Group meets quarterly.
       94
          The transportation committee is composed of a chairperson from the OFDT and
representatives from JPATS, the BOP and the USMS.

                                       - 59 -
officials stated that they have explored this option and identified a guard
company that would charge $2.4 million a year for a regional contract, or
$3 million for a national contract. When JPATS presented these options at a
JEC meeting, customers voted against this alternative.

Proper Intervention by the JEC

      Our audit found that the JEC intervened appropriately in 2005 when
the USMS did not communicate changes in its operations that affected other
JPATS customers. According to the memorandum of understanding related
to the JPATS revolving fund, the former INS, the BOP, and the USMS agreed
“to provide the most accurate estimates of transportation requirements
possible and update those estimates whenever new information is available.”
As a result of a budget rescission, the USMS decided in January 2005 to
reduce its original estimate of 1,850 flight hours for FY 2005 by 150 for the
transport of prisoners using JPATS’s large aircraft. Significantly, the USMS
did not communicate this change through the JEC and instead addressed the
change directly with JPATS.

      Because JPATS typically transports USMS and BOP prisoners on the
same aircraft, the reduction of USMS flight hours affected BOP operations in
the following ways:

      •   The reduction of available flights required the BOP to delay the
          movement of certain prisoners, thus reducing available spaces at
          institutions for new inmates.

      •   The USMS and JPATS both requested the BOP to transport prisoners
          by buses instead of airplanes in order to cope with the reduced
          flight hours. This request taxed the BOP bus system, which was
          already experiencing budget restraints and staff reductions.

      Fortunately, the BOP was able to transport all inmates scheduled for
movement despite the reduction of flight hours because it had contingency
plans in place. Nevertheless, the JEC held meetings in early 2005 to address
the communication issues within JPATS. The participating agencies were
reminded of the importance of keeping all parties informed of any significant
changes such as updating the projected flight hours. As stated earlier in our
discussion on JPATS’s revolving fund, the USMS honored its previous
estimates of planned flight hours by reallocating funds from travel, training,
and quality step increases in order to maintain the level of flights at
previously agreed-upon levels.


                                 - 60 -
Lack of a USMS Liaison

       At the outset of our audit, the BOP and ICE maintained liaisons at
JPATS headquarters in Kansas City, Missouri, to facilitate coordination on
transportation issues directly with JPATS’s Scheduling Section. At the same
time, these liaisons served as experts on transportation policies and issues
affecting their agencies.

       The USMS did not have a similar point-of-contact at JPATS
headquarters until early 2006. Having a liaison from the USMS at JPATS
may seem superfluous since JPATS is a program within the USMS. However,
as discussed previously, JPATS operates from a revolving fund contributed
by its customers and receives executive guidance from the JEC, a
coordinating body chaired by the Assistant Attorney General for
Administration. Consequently, JPATS is an organization with some measure
of autonomy from the rest of the USMS. Therefore, the concept of a USMS
liaison at the JPATS headquarters would include having that individual work
to resolve any difficulties between JPATS and the rest of the USMS when
transporting prisoners.

       The JPATS Chief Inspector of Operations stated that in the absence of
a designated liaison he has assumed that role for the USMS. However, he
conceded that he had generally been too busy with his JPATS duties to focus
specifically on issues affecting the USMS. Moreover, we were unable to
identify any official at USMS headquarters whose responsibility was to
address the USMS’s overall transportation issues. USMS district offices
typically call JPATS headquarters directly on matters of concern and do not
rely on a central point of contact at the USMS. One USMS budget official
informed us that the agency had unsuccessfully attempted to seek funding
for such a liaison position. However, in late 2005 the USMS announced the
vacancy of a liaison at JPATS by reallocating one of its headquarters
positions. The selected individual, a former JPATS employee, entered on
duty in January 2006.

       Initially, we had concerns because we were informed that the USMS
liaison would report to both the USMS and JPATS. The dual reporting status
raised issues of independence and whether the liaison would represent the
USMS’s issues and concerns. As of April 2006, JPATS management stated
that the USMS liaison would no longer report to JPATS but to the USMS
exclusively.




                                 - 61 -
Limitations of the BOP Federal Transfer Center

       JPATS utilizes the BOP Federal Transfer Center (FTC), located at the
Will Rogers World Airport in Oklahoma City, Oklahoma to house prisoners on
a temporary basis while they are in the process of being transported around
the country. During our review, we found that this facility was operating at
full capacity in the summer of 2005 with 1,350 male inmates and 118 female
inmates. The average length of stay for these prisoners was 12.5 days in
FY 2004 and 10.3 days in FY 2005. According to JPATS management, there
is no benchmark for how long a prisoner should stay at the FTC. Because
the facility operated at full capacity, the lack of bed space affected JPATS’s
ability to transport prisoners, especially those that required layover
housing. 95

      Insufficient bed-space at the FTC to provide lodging for BOP or USMS
prisoners does not necessarily mean that JPATS cannot transport prisoners.
Rather, JPATS operations become less efficient and more costly when
overnight housing is lacking. Specifically, if JPATS does not have access to
beds for housing prisoners overnight, it cannot group prisoners destined for
the same location on a single flight and thereby take advantage of
economies of scale.

        As a short-term solution, the OFDT worked with the USMS to obtain an
agreement with a local county correctional facility that had an additional 240
beds available. According to a JPATS official, a long-term solution would be
to contract with additional correctional facilities, preferably one on each
coast. JPATS could then house prisoners who need to stay at these layover
facilities on a short-term basis, similar to the FTC, as they complete their
itinerary.

      Although the short-term solution resolved the problem of insufficient
bed space for in-transit prisoners, we believe that JPATS, in coordination
with the JEC and the BOP, should establish a benchmark for the length of
layover stays at the FTC. Furthermore, JPATS should work through the JEC
to examine how it can help reduce the length of stay for in-transit prisoners
being housed at the transfer center.



       95
          When JPATS picks up BOP or USMS prisoners at a location, the final destination
for those prisoners may not necessarily be on the itinerary for that day, but rather the next
day or several days later. In such circumstances, JPATS needs to house the in-transit
prisoners overnight until they arrive at their final destination. Therefore, the BOP Federal
Transfer Center is utilized for this purpose.

                                        - 62 -
Coordination with BOP Institutions

       One common issue affecting the use of the BOP Federal Transfer
Center occurs when BOP institutions cannot accept prisoners as originally
planned. In June 2005, for example, 35 prisoners at the FTC were
scheduled to leave for a BOP institution on the west cost aboard a JPATS
flight. Two days before the departure, the BOP notified JPATS that only 20
of the 35 inmates could be accepted at the destination. Because JPATS
serves this destination every two weeks, the remaining 15 prisoners had to
be kept at the FTC for another two weeks. This change of plans caused
concern because the FTC and the nearby county jail had already reached full
capacity, which, in turn, meant that JPATS was unable to accommodate
additional prisoners who would require a layover at the transfer center.

      Occasionally, such unexpected changes occurred after a prisoner has
already departed on a JPATS flight. In June 2005, a prisoner was reassigned
to another BOP institution after he had already left the transfer center on a
JPATS flight. The BOP had intended to fly the prisoner back to Oklahoma
City, Oklahoma for redesignation, but the prisoner complained of pain from
kidney stones upon arrival at the original destination. Because the prisoner
had already been reassigned, JPATS had to coordinate with BOP officials to
devise an alternative for this passenger. We learned that local BOP officials
assisted the prisoner so he could receive medical care and he eventually
arrived at the intended institution.

      Not all such coordination issues involve the FTC. In April 2006, JPATS
scheduled movement of 45 prisoners from one BOP institution to another in
the same state. Because of insufficient bed space, the BOP institution
receiving the inmates notified JPATS on the Monday before the Friday flight
that only 16 prisoners could be accommodated. As a result, the remaining
29 prisoners had to stay at the originating institution indefinitely until spaces
become available.

      We found that JPATS generally worked with the BOP liaison and a
contract advisor at the OFDT – a former BOP official – when unusual
transportation problems for prisoners occur. According to this OFDT advisor,
the policy of the BOP is to accept all prisoners unless an official moratorium
has been declared by BOP headquarters. A moratorium at a BOP institution
may be declared for 90 days when that facility is full, under renovation, or
experiencing a medical issue. While we believe that coordination occurred
among JPATS, the BOP, and the OFDT in resolving these unexpected
interruptions, a more systematic approach may help identify the underlying
causes. For instance, a database may be developed to record and archive

                                  - 63 -
these occurrences: locations and circumstances of the interruptions, and
actions required to resolve them. Analysis of this information may reveal
patterns or root causes of these disruptions and point toward possible
solutions to reduce future occurrences.

Medical Clearance of Passengers

      JPATS requires all prisoners and aliens to have a properly completed
Medical Summary/Transit/Alert Form (Form USM-553).96 This document
serves as evidence that the passenger has been properly screened for all
possible medical issues and will not pose health risks to others inside the
aircraft. Currently, U.S. Public Health Service flight nurses examine the
medical clearance of passengers and perform on-the-spot screening of
passengers who arrive without adequate evidence. If the passengers fail the
screening, JPATS may deny them boarding. In addition, the flight nurses
ensure that the passengers have any required medication.

      U.S. Public Health Service flight nurses also compile the results of their
medical screening and the number of prisoners or aliens denied boarding
from JPATS flights. We tabulated the data provided by the flight nurses for
FYs 2004, 2005, and the first quarter of 2006 for Oklahoma City, Oklahoma;
Alexandria, Louisiana; and Mesa, Arizona in the following table.




       96
           JPATS specifies the medical clearance requirement in its Cabin Manual, Chapter
entitled “Medical Regulations”: “Every prisoner/alien must have a completed Form USM-
553, Medical Summary/Transit/Alert Form, BOP-149, or ICE/other equivalent when
delivered to the prisoner/alien exchange location.” For prisoner transport, the Program
Statement 5540.05 of the BOP, Prisoner Transportation Manual, Chapter 3, Section 302
states that “All persons concerned with the transfer of prisoners shall be aware that the
Medical Record of Federal Prisoner In-Transit (BP-149) form must accompany all prisoners
in-transit.” For alien transport, the Detention Operations Manual of ICE, chapter entitled
“Detainee Transfer,” Section III-D-1 states that the file accompanying the transfer of aliens
needs to include a “USM-553 or local transfer summary form.”

                                        - 64 -
        PRISONERS OR ALIENS DENIED BOARDING DUE TO MEDICAL ISSUES
  Location       FY      No Clearance      No Medicine   Tuberculosis   Others
                  2004                 5            16            78             55
 Oklahoma         2005                 2            16            39             44
 City             2006                 1             8             6             6
              Subtotal                 8           40            123         105
                  2004                 3            23             6             2
                  2005                 0            11             5             1
 Alexandria
                  2006                 0             2             1             5
              Subtotal                 3           36             12             8
                  2004                 0             7            12             3
                  2005                 0             2             8             2
 Mesa
                  2006                 0             1             3             0
             Subtotal                  0           10             23             5
      Grand Total                     11           86            158         118
 Source: U.S. Public Health Service

      Initially, data in the table suggest that the transport of prisoners from
the hub in Oklahoma City, Oklahoma poses a greater health risks than the
transport of aliens from the Alexandria, Louisiana and Mesa, Arizona hubs.
However, the U.S. Public Health Service flight nurses informed us that the
higher number of medical denials for the transport of prisoners resulted from
more stringent requirements at BOP institutions. In addition, the flight
nurses stated that the institutional practices of ICE may account for, in part,
the relatively few medical denials at the Alexandria, Louisiana and Mesa,
Arizona hubs. Some aliens could have been brought to the airlift locations
shortly after being detained by ICE officers. Consequently, many of the
aliens have not been through any detention centers where the on-site
medical facility would complete the medical screening forms. At one ICE
Service Processing Center that we visited, the on-site infirmary administered
tuberculosis screening tests only if the aliens were scheduled to stay for
more than 12 hours. In the absence of adequate medical clearance
information, the flight nurses perform on-the-spot screening of aliens to
mitigate the health risks of JPATS flight missions.

2003 Medical Screening Incident

      An extreme case of failed medical screening occurred in May 2003
when an alien did not pass an examination by the Public Health Service flight
nurse. The alien arrived at the airlift location with two escorts from ICE. All
three individuals wore masks and protective clothing. The flight nurse

                                      - 65 -
determined that the alien did not have the required medical clearance form
and exhibited symptoms consistent with Severe Acute Respiratory Syndrome
(SARS).

       JPATS management, upon consulting with the ICE liaison and the
Centers for Disease Control, directed the JPATS security crew to allow the
alien on board the flight. However, the security crew refused to continue the
mission because of the perceived health risk. To avoid further delay of the
flight, JPATS continued without the alien, who was eventually transported by
a commercial airline.

Coordination on Financial Issues

      As explained in our discussion in the Budget Issues section, the
original memorandum of understanding for JPATS’s revolving fund serves as
the charter document that outlines the responsibilities of JPATS and its
customers on financial issues. It also provides a mechanism to ensure that
adequate coordination exists to ensure unimpeded operation.

      For instance, the MOU requires the customers to provide the most
accurate estimates possible of transportation requirements, and to update
these estimates when new information becomes available. JPATS needs this
information in order to correctly calculate the rate it charges customers. In
addition, to ensure that the rate charged is accurate, JPATS holds a mid-year
conference with its customers. At the conference, JPATS and its customers
review the flight hours already used, as well as adjust the requirements for
the remainder of the fiscal year. JPATS uses the updates to calculate a new
rate for the upcoming months. As already mentioned in the discussion on
the JEC, our review of this process revealed that the USMS unilaterally
reduced its flight hours in early 2005 without prior notice to other
customers.

      Besides the mid-year conference, a Right-Sizing/Pricing Methodology
Committee (Committee) was formed in May 2005 to coordinate participating
agencies on financial issues. The Committee is chaired by the Detention
Trustee, and membership includes representatives of JPATS, ICE, the BOP,
and the USMS. The Committee’s purpose is to evaluate JPATS’s personnel
structure and resources, as well as possible expansions to JPATS’s services.

Conclusion

      Our audit disclosed mixed results regarding JPATS’s coordination with
other agencies regarding movements of prisoners and aliens. We found that

                                 - 66 -
the JEC intervened properly in March 2005 as a coordinating body when it
discovered an instance where the USMS did not communicate a reduction in
its transportation needs to all involved parties. Besides the JEC, the liaisons
from the major customer agencies provide a point of contact to resolve
transportation issues at JPATS headquarters. Moreover, the lack of a USMS
liaison was resolved in early 2006 when the USMS appointed a former JPATS
employee to fill this position.

Recommendation

      We recommend the USMS:

15.   Coordinate with the JEC and the BOP on establishing a benchmark for
      the length of layover stays, and how JPATS can help reduce the length
      of stay of in-transit prisoners at the BOP Federal Transfer Center.




                                  - 67 -
    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       The audit of the USMS’s management of JPATS was conducted in
accordance with generally accepted government auditing standards. As
required by these standards, we tested selected transactions and records to
obtain reasonable assurance about the USMS’s compliance with laws and
regulations that, if not complied with, we believe could have a material
effect on operations. Compliance with laws and regulations applicable to the
administration of JPATS is the responsibility of its management.

      An audit includes examining, on a test basis, evidence about laws and
regulation. The specific requirements for which we conducted tests are
contained in the OMB Circular No. A-126, Improving the Management and
Use of Government Aircraft. We found that the USMS was in compliance
with the circular in the method of accounting for the cost of the operation,
but not in the efficient use of aviation resources.




                                 - 68 -
                                                                   APPENDIX I

                OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The objectives of our audit were to evaluate the USMS’s: (1) ability to
effectively manage the risks inherent in prisoner movements to ensure safe
and efficient transport, and (2) coordination with its three primary
customers regarding the movement of prisoners and aliens.

Scope and Methodology
      We conducted the audit in accordance with the Government Auditing
Standards, and included the tests and procedures necessary to accomplish
our objectives.

      We performed our work primarily at JPATS headquarters in Kansas
City, Missouri and three of JPATS hubs in Oklahoma City, Oklahoma;
Alexandria, Louisiana; and Mesa, Arizona. In addition, we visited the
headquarters and/or field offices of agencies that interact with JPATS
regularly: the USMS, the BOP, ICE, the U.S. Public Health Service, and the
OFDT.

      To accomplish our audit objectives, we:

      •   reviewed prior reports on JPATS and researched pertinent laws and
          regulations;

      •   interviewed officials at JPATS headquarters and three of the four
          hubs: Oklahoma City, Oklahoma; Alexandria, Louisiana; and Mesa,
          Arizona;

      •   interviewed operational personnel for a total of 23 full-time pilots,
          18 full-time Air Enforcement Officers, and 33 contract Air Security
          Officers at three of JPATS’s four hubs;

      •   interviewed 15 full-time prisoner transportation specialists (the
          schedulers) at JPATS’s headquarters in Kansas City, Missouri;

      •   obtained relevant manuals and policies regulating the JPATS
          operations;



                                   - 69 -
•   interviewed USMS officials at its headquarters in Washington, D.C.,
    and district offices in Kansas City, Missouri; San Francisco,
    California; Phoenix, Arizona; and Alexandria, Louisiana;

•   interviewed BOP officials at its headquarters in Washington, D.C.,
    the Federal Transfer Center in Oklahoma City, Oklahoma, and
    correctional facilities in Phoenix, Arizona; Dublin, California;
    Oakdale, Louisiana; Atlanta, Georgia; and Gilmer, West Virginia;

•   interviewed ICE officials at its headquarters in Washington, D.C.,
    district office in San Francisco, California; the district sub-office in
    Oakdale, Louisiana; and the Service Processing Center in Florence,
    Arizona;

•   reviewed budget information, and pertinent accounting and
    administrative records;

•   analyzed the time-and-attendance records of 27 employees of
    JPATS to evaluate crew rest issues;

•   evaluated the flight manifest records for the scoped 9 months to
    assess the adequacy of security crew aboard the flights and
    efficiency in scheduling;

•   reviewed the scheduling reports for the scoped 9 months to assess
    the adequacy of security officers at the hangar in Oklahoma City,
    Oklahoma; Alexandria, Louisiana; and Mesa, Arizona.

•   examined 117 reports on security incidents;

•   reviewed reports on medical denials from the USPHS flight nurses
    from October 2003 through December 2005;

•   reviewed the credentials and background investigation of 32 pilots.




                              - 70 -
                                                   APPENDIX II


 AIR AND GROUND ROUTES FOR JPATS’S CUSTOMERS




                [SENSITIVE INFORMATION REDACTED]




Source: JPATS




                          - 71 -
                                                                     APPENDIX III

       JPATS AIR MOVEMENTS BY FISCAL YEAR AND AGENCY


                               JPATS AIR MOVEMENTS
                             FY 1995 THROUGH FY 2005

       FY           USMS              BOP               INS/ICE      TOTAL
        1995          36,388               23,112           10,352      69,852
        1996          44,763               22,336           30,996      98,095
        1997          47,253               22,670           41,361     111,284
        1998          55,624               26,690           52,165     134,479
        1999          54,449               25,711           60,126     140,286
        2000          51,702               26,091           74,693     152,486
        2001          52,601               24,586           75,530     152,717
        2002          54,789               25,793           82,103     162,685
        2003          59,820               26,014           89,373     175,207
        2004          63,721               23,532           89,269     176,522
        2005          62,402               23,670           95,876     181,948
       TOTAL         583,512          270,205             701,844    1,551,561
    Source: JPATS

     The 95,876 air movements of ICE prisoners in FY 2005 resulted in the
deportation of 33,169 aliens, as shown in the following table.

                            INTERNATIONAL REMOVALS
                           VIA JPATS AIRCRAFT FY 2005

                             Destination            No. of Aliens
                     Honduras                              12,630
                     Guatemala                             10,829
                     El Salvador                             5,931
                     Dominican Republic                      1,662
                     Haiti                                    754
                     Colombia                                 506
                     Jamaica                                  461
                     Ecuador                                  337
                     Trinidad                                   23
                     Cuba                                       19
                     Guyana                                     17
                      TOTAL                                33,169
                     Source: JPATS


                                     - 72 -
                                                     APPENDIX IV

MOVEMENTS FOR NON-FEDERAL PRISONERS BY STATE


               NON-FEDERAL PRISONER MOVEMENTS
              BY STATE OR TERRITORY OF REQUESTER

              STATE         FY 2004        FY 2005

   Alabama                             0             2
   Alaska                              4             5
   Arizona                             2             2
   Arkansas                            2             7
   California                         46             66
   Colorado                            6             2
   Connecticut                        42             36
   Florida                            17             44
   Georgia                             4             12
   Guam                                1             0
   Hawaii                             8              3
   Idaho                               1             2
   Illinois                           16             15
   Indiana                            25             17
   Iowa                                0             2
   Kansas                              1             3
   Kentucky                            0             5
   Louisiana                           7             5
   Maine                               8             28
   Maryland                            3             3
   Massachusetts                       0             1
   Michigan                           20             20
   Minnesota                          42             26
   Mississippi                         8             7
   Missouri                           4              3
   Montana                             2             3
   Nebraska                            7             10
   Nevada                              1             0
   New Hampshire                      40             27
   New Jersey                          8             15
                          - 73 -
        STATE      FY 2004         FY 2005

New Mexico                    16               1
New York                      25              24
North Carolina                 2               1
North Dakota                  25              20
Ohio                          25              32
Oklahoma                       2               2
Oregon                        60              82
Pennsylvania                  32              16
Puerto Rico                    0               5
Rhode Island                   1               1
South Carolina                 4               8
South Dakota                  45              44
Tennessee                     12              11
Texas                          7              24
Utah                          60              75
Vermont                        8               4
Virginia                      14              32
Washington                    13              20
West Virginia                  7               2
Wisconsin                     43              68
Wyoming                        7              15
 TOTAL                       733             858
Source: JPATS




                 - 74 -
                                                                              APPENDIX V

    MOVEMENTS FOR NON-FEDERAL PRISONERS BY TOP REQUESTERS


                              FY 2005 TOP 10 REQUESTERS
   NUMBER
     OF                  NON-FEDERAL JURISDICTION                         CITY       STATE
  REQUESTS
      68        Utah Commission on Criminal and Juvenile Justice    Salt Lake City    UT
      49        State of Oregon                                     Salem             OR
      29        Pennington County Sheriff                           Rapid City        SD
      24        Dane County Sheriff                                 Madison           WI
      16        Okaloosa County Sheriff                             Shalimar          FL
      12        Frederick County Sheriff                            Winchester        VA
      11        Grand Forks County Correctional Center              Grand Forks       ND
      11        Winnebago County Sheriff                            Oshkosh           WI
       9        Albany County District Attorney                     Albany            NY
      9         Androscoggin County District Attorney               Auburn            ME
Source: JPATS



                              FY 2004 TOP 10 REQUESTERS
  NUMBER
    OF                  NON-FEDERAL JURISDICTION                         CITY        STATE
 REQUESTS
     60         Utah Commission on Criminal and Juvenile Justice   Salt Lake City     UT
     17         Pennington County Sheriff                          Rapid City         SD
     16         New Mexico Corrections Department                  Santa Fe           NM
     15         Dane County Sheriff                                Madison            WI
     12         Grand Forks County Correctional Center             Grand Forks        ND
     12         Pennsylvania Department of Corrections             Camp Hill          PA
     11         Hennepin County Sheriff                            Minneapolis        MN
     10         Rockingham County Attorney                         Kingston           NH
      9         New London State’s Attorney                        New London         CT
       9        South Dakota Department of Corrections             Sioux Falls        SD
Source: JPATS




                                           - 75 -
                                                                          APPENDIX VI

APSS PROCESSING CODES FOR PRISONER TRANSPORT IN SUPPORT
               OF THE FEDERAL JUDICIARY 97
                                                     EXPEDITE   MEDICAL     DANGER
  NO.            PROCESS DESCRIPTION
                                                       FLAG      FLAG        FLAG

     1       USMS Alaska District
     2       U.S. Attorney’s Request                   Yes
     3       Court Order
     4       Escape                                                           Yes
     5       Hold Over
     6       Judgment or Commitment
     7       Juvenile
     8       Medical Emergency                                    Yes
     9       Probation Violator
    10       Program Failure
    11       Parole Violator
    12       Return of Attorney’s Request
    13       Return of Court Order
    14       Return of Study and Observations          Yes
    15       Terrorist Witness’ Return
    16       Return of Writ
    17       Study and Observation                     Yes
    18       Supervised Released Term
    19       Terrorist – USMS
    20       Terrorist Witness                         Yes
             Writ of Habeas Corpus Ad
    21       Testificandum                             Yes
             Writ of Habeas Corpus Ad
    22       Prosequendum                              Yes
    23       Warrant of Removal                        Yes
    24 Writ                                            Yes
 Source: JPATS




        97
          Under the EXPEDITE FLAG column, Study and Observation, Return of Study and
Observation, and Warrant of Removal must be executed in 10 days in accordance with the
Speedy Trial Act, 18 U.S.C. § 3161.

                                            - 76 -
                                                     APPENDIX VII

                WEEKLY SCHEDULE OF LARGE AIRCRAFT




                  [SENSITIVE INFORMATION REDACTED]




Source: JPATS




                  [SENSITIVE INFORMATION REDACTED]




                             - 77 -
                                                   APPENDIX VIII

           JPATS AIR FLEET COMPOSITION AND CAPACITY




                [SENSITIVE INFORMATION REDACTED]




Source: JPATS




                           - 78 -
                                                                          APPENDIX IX

               LIST OF AUDITS AND REVIEWS ON JPATS
         OR ON SUBJECT MATTERS RELATED TO ITS OPERATIONS

 YEAR         PERFORMING ENTITY                     TITLE/FOCUS OF THE REVIEW
         EDS Enterprise
  1995   Integration Services                Requirements Analysis to Automate JPATS

  1995   Keane Inc.                          Requirements Analysis to Automate JPATS
         Interagency Committee for           Aviation Resource Management Survey
  1996   Aviation Policy (ICAP)              (ARMS)

  1997   DOJ OIG                             JPATS Inspection (Operations and Automation)

  1997   Coopers and Lybrand                 Five-Year Strategic Plan for JPATS

  1998   ICAP                                ARMS

  1998   DOJ JMD                             Detention & Incarceration Study
                                             Cost- Benefit Analysis of Transportation
  1998   Coopers & Lybrand                   Consolidation

  1999   USMS Program Preview                Procurement & Contracting Review of JPATS

  2000   Independent OPM Fact Finding        JPATS Management Review

  2000   Urbach, Kahn & Welin                JPATS Financial Audit

  2001   Urbach, Kahn & Welin                JPATS Financial Audit

  2002   Independent OPM Fact Finding        JPATS Management Review

  2002   Urbach, Kahn & Welin                JPATS Financial Audit

  2002   ICAP                                ARMS

  2002   Price Waterhouse Consulting         JPATS Cost Study

  2002   DOJ JMD                             Study of JPATS Management & Resources

  2002   USMS Program Preview                Audit of JPATS Finances
                                             Plan to Streamline Functions & Focus
 2002    Booz, Allen and Hamilton            Resources on Front-line Positions
 2003-
  04     GAO                                 Study of Federal Aircraft Programs

  2004   DOJ OIG                             Personal Service Guards
                                             JPATS- Right Sizing Working Groups/
  2005   IBM-Business Consulting Services    Organizational and Staffing Model Project
Source: JPATS

                                        - 79 -
         APPENDIX X




- 80 -
                                                    APPENDIX XI

         FLIGHTS WITH PASSENGER-TO-CREW RATIO
             [SENSITIVE INFORMATION REDACTED]




              [SENSITIVE INFORMATION REDACTED] 98




98
     [SENSITIVE INFORMATION REDACTED]

                            - 81 -
[SENSITIVE INFORMATION REDACTED]




           - 82 -
[SENSITIVE INFORMATION REDACTED]




           - 83 -
                 [SENSITIVE INFORMATION REDACTED]




Source: OIG analysis of JPATS flight data




                                  - 84 -
                                                           APPENDIX XII

                             ACRONYMS
AEO     Aviation Enforcement Officer
APSS    Automated Prisoner Scheduling System
ARMS    Aviation Resource Management Survey
ASO     Aviation Security Officer
BOA     Basic Ordering Agreement
BOP     Federal Bureau of Prisons
CONUS   Continental United States
CDUSM   Chief Deputy United States Marshal
CFR     Code of Federal Regulations
CRR     Congressional Relocation Report
DOJ     Department of Justice
FAA     Federal Aviation Administration
FASS    Facilities and Services Staff (JMD)
FOPM    Flight Operations and Procedures and Manual
FTC     Federal Transfer Center
FY      Fiscal Year
GAO     Government Accountability Office
GSA     General Services Administration
ICAP    Interagency Committee on Aviation Policy
IPAC    Intra-governmental Payment and Collection
ICE     Immigration and Customs Enforcement
INS     Immigration and Naturalization Service
JCAS    JPATS Cost Accounting System
JDIS    Justice Detainee Information System
JEC     JPATS Executive Committee
JMD     Justice Management Division
JPATS   Justice Prisoner and Alien Transportation System
NTSB    National Transportation Safety Board
OFDT    Office of the Federal Detention Trustee
OMB     Office of Management and Budget
OPM     Office of Personnel Management
PTS     Prisoner Tracking System
SOIC    Security Officer in Charge
SPC     Service Processing Center
USC     United States Code
USMS    United States Marshals Service



                             - 85 -
                     APPENDIX XIII

AUDITEE’S RESPONSE




    - 86 -
- 87 -
- 88 -
- 89 -
- 90 -
- 91 -
- 92 -
                                                             APPENDIX XIV

       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
              ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE THE REPORT

       We provided a draft audit report to the USMS for review and
comments. The USMS’s comments have been incorporated as Appendix XIII
of this report, which details the actions taken or plans for implementing our
recommendations. This Appendix summarizes our analysis of the USMS’s
comments and proposed actions required to close the report.

Recommendations:

  1.    Resolved. The USMS agreed with our recommendation to work
        with the JEC to explore the possibility of instituting a hybrid budget
        model to fund JPATS through both an annual appropriation and
        payments from customers based on usage. In its response, the
        USMS stated that JPATS will address this topic with the JEC at the
        next committee meeting.

        This recommendation can be closed when we receive evidence that
        JPATS has examined the feasibility of moving towards a hybrid
        model, presented this issue to the JEC, and obtained a decision
        from the JEC on this matter.

  2.    Resolved. The USMS agreed with our recommendation to ensure
        that JPATS performs long-term capacity planning, including the
        development of a forecasting model to project future needs in
        prisoner and alien transport and the resources to meet those needs.
        In its response, the USMS stated that JPATS intends to utilize the
        results of a JEC committee to build a long-term planning document
        to suit the needs of customer agencies. In addition, JPATS has a
        draft directive to address short and long range asset acquisition
        planning. Also, the Budget Office is in the process of drafting a
        memo to all JPATS Departments to explain the planning, procuring,
        and management of assets as well as soliciting their assistance and
        expertise in developing the preliminary plan.

        In order to close this recommendation, please provide us a copy of
        the long-term planning document that JPATS plans to create and
        evidence of a forecasting model that projects future needs in
        prisoner and alien transport as well as the resources needed to

                                 - 93 -
     meet those demands. Also, please provide us a copy of the draft
     directive addressing acquisition planning and the Budget Office
     memorandum.

3.   Resolved. The USMS agreed with our recommendation to work
     through the JEC to revise the flight schedules of ICE to reflect
     actual needs and improve the efficient use of available seats. In its
     response, the USMS stated that JPATS will approach ICE again with
     a request to change the regularly scheduled evening flights to
     operate during daytime hours. To close this recommendation,
     please provide evidence that JPATS has consulted with the JEC and
     ICE to revise less efficient ICE flights. Revisions to less efficient
     flight schedules may include a reduction in the number of flights per
     week to more efficiently use available seats on flights originating
     from the Mesa, Arizona hub.

4.   Resolved. The USMS agreed with our recommendation to replace
     its short-term leases for large aircraft with less expensive long-term
     leases. In its response, the USMS stated that JPATS has legal
     authority to lease aircraft up to ten years and it is actively pursuing
     a follow-on long-term aircraft lease arrangement with the
     assistance of the DOJ procurement staff. JPATS anticipates that the
     new leases will be for one base year and up to nine option years, as
     determined by OMB Circular A-11. To close this recommendation,
     please provide evidence that JPATS has replaced its short-term
     leases with less expensive long-term leases.

5.   Resolved. The USMS agreed with our recommendation to work
     through the JEC to encourage ICE to schedule overseas flights in
     APSS. In its response, the USMS stated that JPATS will continue to
     seek cooperation from ICE personnel to implement this procedure.
     To close this recommendation, please provide evidence that JPATS
     has proposed to the JEC that ICE schedule its overseas flights
     through APSS and made an effort to encourage ICE to use APSS for
     these types of flight missions.

6.   Resolved. The USMS agreed with our recommendation to provide
     security crew members with online editing access to APSS for
     updating the flight manifest. In its response, the USMS stated that
     JPATS has already explored the possibility of granting online access
     to APSS for security crew members and that it will continue to
     monitor new technology and pricing. In light of these concerns, this
     recommendation can be closed when we receive evidence that

                              - 94 -
     JPATS has explored and chosen a suitable alternative that would
     not necessarily require on-line access to an existing system, yet
     would help security crew members cope with last-minute changes
     to flight manifests. Such a suitable alternative may be an electronic
     manifest, or similar automated tool, enabling security crew
     members to record the actual number of passengers that board a
     plane, deplane, and remain on board. Such an automated tool
     should also accurately compute available seats at all segments of
     the flight mission.

7.   Resolved. The USMS agreed with our recommendation to develop
     a tracking system to ensure that pilot files contain current copies of
     their licenses, medical certificates, and training records. In its
     response, the USMS stated that the JPATS training officer has a
     computer program that allows the officer to monitor pilots’ physical
     exams, training due dates, and changes to licenses. In addition,
     JPATS already has instructions for copies of all documents relative
     to training, changes in licenses, and completion of medical reviews
     be forwarded to the Oklahoma City, Oklahoma hub. To close this
     recommendation, please provide evidence that the training officer
     uses the computer program on a regular basis to remind pilots
     when the renewal of their credentials is due. Also, please provide a
     copy of the standing instructions that require all copies of licenses,
     medical certificates, and training records be provided to the
     Oklahoma City, Oklahoma hub.

8.   Resolved. The USMS agreed with our recommendation to create a
     method to monitor the duty hours of flight and security crews to
     ensure that all crew members receive adequate rest between flight
     assignments. In its response, the USMS stated that JPATS will
     consider whether inserting flight time and duty time into the JCAS
     system (after program changes are complete) will achieve the
     objective of this recommendation. To close this recommendation,
     please provide evidence that JPATS has developed a method for
     monitoring duty hours of flight and security crews to ensure that all
     crew members receive adequate rest between flight missions.

9.   Resolved. The USMS agreed with our recommendation to create a
     mechanism to follow up verbal waivers for crew rest with a written
     record, and a central location for maintaining written waivers for
     both flight and security personnel. In its response, the USMS
     stated that JPATS plans on making the crew rest waiver forms
     electronically available to all employees, capable of being sent to

                              - 95 -
      qualifying officials for approval through e-mail, retained, and readily
      available within the JACS system. To close this recommendation,
      please provide evidence that JPATS has developed this electronic
      system, instructed operational employees on filling out the form,
      reminded qualifying officials on approving requests for crew rest
      waivers through e-mail, and has begun to maintain these records in
      a central location.

10.   Resolved. The USMS agreed with our recommendation to
      implement a mechanism to track the ratio between security officers
      and passengers to ensure that flight missions adhere to the ratio in
      the Cabin Manual. In its response, the USMS stated that JPATS will
      convene an internal group to address this issue. To close this
      recommendation, please provide evidence that the internal group
      has developed a mechanism that tracks and maintains the ratio of
      security officers to passengers on flight missions.

11.   Resolved. The USMS agreed with our recommendation that it
      ensure that JPATS adheres to its Program Directive on hangar
      security, including maintaining an adequate level of security at
      hangars. Specifically, in its response, the USMS stated that JPATS
      will continue at every opportunity to put a regional or national
      security contract in place at each of its sites to ensure an adequate
      level of security exists at all times. To close this recommendation,
      please provide evidence that JPATS is adhering to its Program
      Directive on hangar security and that it has entered into security
      contracts for each hangar location.

12.   Resolved. [SENSITIVE INFORMATION REDACTED].

13.   Resolved. The USMS agreed with our recommendation to
      implement a mechanism that will comprehensively track security
      incidents and related reports. Specifically, JPATS plans to form an
      internal working group to address this issue and automate the
      reporting process in APSS. To close this recommendation, please
      provide evidence that a mechanism was developed and
      implemented to track security incidents and related reports.




                               - 96 -
14.   Resolved. The USMS agreed with our recommendation to create a
      module in APSS to record information from incident reports that will
      assist JPATS in scheduling prisoners and aliens with prior security
      issues aboard JPATS flights. In its response, the USMS stated that
      JPATS’s information technology personnel are currently working to
      implement this recommendation. To close this recommendation,
      please provide evidence that a module in APSS has been developed
      and is being used to capture information on passengers with
      previous security issues aboard JPATS flight missions.

15.   Resolved. The USMS agreed with our recommendation to help
      reduce the length of stay of in-transit prisoners at the BOP Federal
      Transfer Center. In its response, the USMS stated that JPATS will
      work with the BOP, through the JEC, to establish a benchmark to
      reduce the number of days prisoners stay at the BOP Federal
      Transfer Center. To close this recommendation, please provide
      evidence that JPATS, in conjunction with the JEC and the BOP, has
      established a benchmark for the length of layover stays at the BOP
      Federal Transfer Center.




                              - 97 -
